$'''''''"'~            DEPARTMENT OF HEALTH AND HUMAN SERVICES


      ~<?-
!"O~+~+.(;~.... 	
                    OFFICE OF INSPECTOR GENERAL
                                        WASHlNGTON, DC 2020]




                                        JUN t 2 2012
  TO: 	             Marilyn Tavenner
                    Acting Admini strator
                    Centers for Medicare & Medicaid Services

                                  /S/
  FROM:             Stuart Wright
                    Deputy Inspector General
                      for Evaluation and Inspections


  SUBJECT: 	 Memorandum Report: Coverage and Payment for Genetic Laboratory
             Tests, OEI-07-11-000 11


  This memorandum report provides the results of surveys sent to State Medicaid and
  Federal Employee Health Benefit (FEHB) programs and interviews with Veterans Health
  Administration (VHA) staff regarding coverage and payment for genetic laboratory tests.
  Centers for Medicare & Medicaid Services (CMS) officials requested this infonnation at
  the start of our study entitled Payments for Laboratory Tests: Comparing Medicare,
  State Medicaid, and Federal Employees Health Benefits Programs (OEI-07-11-00010).
  This infonnation is provided to assist CMS in its efforts to establish payment rates for
  genetic tests. CMS has scheduled its annual laboratory public meeting for July 16,2012.
  At this meeting, 101 new genetic test codes for which no Medicare payment rates exist
  will be discussed.

  SUMMARY

  The Office of Inspector General (OIG) is currently conducting an evaluation entitled
  Payments for Laboratory Tests: Comparing Medicare, State Medicaid, and Federal
  Employees Health Benefits Programs (OEI-07-11-00010). The objectives of that
  evaluation are to determine (I) how the methods for establishing Medicare laboratory test
  payment rates vary from State Medicaid and FEHB programs, and (2) the extent to which
  2011 Medicare payment rates for 20 high-volume and/or high-expenditure laboratory
  tests vary from State Medicaid and FEHB plans. During a meeting on June 29, 2011,
  eMS officials informed us that, in addition to high-volume and high-expenditure
  laboratory tests, a collection of pricing data for genetic tests from other health care
  insurers would assist CMS in establishing payment rates for the 101 new genetic test
  codes in 2012.




  OEI-07-11 -00011       Coverage and Payment for Genetic Laboratory Tests
Page 2 – Marilyn Tavenner


To answer the objectives of the earlier evaluation, we surveyed State Medicaid and
FEHB plan staff to determine payment rates for each State and FEHB plan and to
determine how their laboratory test payment rates were established. To respond to CMS
officials’ requests for similar information for genetic tests, we (1) surveyed State
Medicaid and FEHB plan staff and interviewed VHA staff about their coverage policy
and establishment of payment rates, and (2) obtained 2011 payment rates for selected
genetic tests by name and by Common Procedural Terminology (CPT) code from each of
the health care insurers we surveyed. The payment rate information for genetic tests by
CPT code is important because these codes are the basis underlying 101 new genetic test
CPT codes. We are providing the results of the surveys and interviews in this
memorandum for CMS’s use in informing Medicare coverage and payment policies for
genetic tests.

BACKGROUND

Clinical diagnostic laboratory tests (lab tests) are performed on specimens taken from the
human body. Lab tests provide information integral to preventing, diagnosing, and
treating disease. Most lab tests are performed in hospitals, physicians’ offices, or
independent laboratories. Genetic testing is the use of a lab test to look for genetic
variations associated with a disease.1 Genetic tests can be used to predict, prevent, and
inform the treatment of diseases.

As with any new medical technology, genetic tests face challenges as they are integrated
into the health care system, such as health care insurers’ decisions to provide coverage
and establish payment rates for these services. Although genetic testing has been
performed for more than 20 years, these decisions are still evolving.

Medicare Coverage of Genetic Tests
The Social Security Act provides that no Medicare payment may be made for expenses
incurred for items or services that are not reasonable and necessary for the diagnosis or
treatment of illness or injury or to improve the functioning of a malformed body
member.2 Consistent with this, Medicare does not pay for preventive screening tests
except for those specifically authorized by statute (e.g., prostate-specific antigen test).
Since CMS considers predictive tests to be screening tests, genetic tests for this purpose
are not covered by Medicare. However, genetic tests used to diagnose or determine
treatment in the presence of signs and symptoms of disease can be covered by Medicare.3
A common use of genetic tests in the Medicare population is to assist in determining




1
   National Human Genome Research Institute, National Institutes of Health. Accessed at 

http://www.genome.gov on January 25, 2012.
 
2
   Social Security Act § 1862(a)(1)(A).
 
3
   Secretary’s Advisory Committee on Genetics, Health, and Society, Coverage and Reimbursement of Genetic

Tests and Services, February 2006, p. 30. Accessed at http://oba.od.nih.gov/oba/sacghs/reports/CR_report.pdf on 

January 25, 2012.
 


OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
Page 3 – Marilyn Tavenner


cancer treatment. Genetic tests can be used to predict optimal chemotherapy regimens
and avoid exposing patients to ineffective or overly toxic regimens.4

Medicare uses a combination of national and local coverage determinations for making
coverage decisions for genetic tests. National coverage determinations (NCD) are made
at the Federal level and apply to all Medicare beneficiaries and Medicare administrative
contractors (MAC). Currently, only two NCDs related to genetic tests have been
established: (1) testing to predict patient responsiveness to the drug warfarin sodium, and
(2) cytogenetic studies.5 MACs make local coverage determinations (LCD), which apply
only to beneficiaries in the contractor’s jurisdiction. Of the nearly 9,000 LCDs, only
11 are related to genetic tests. For example, one MAC covers BRCA1 and BRCA2
genetic testing for beneficiaries who meet certain criteria.6

Medicare Payment for Genetic Tests
The Clinical Laboratory Fee Schedule. The Deficit Reduction Act of 1984 (DRA)
mandated that payment rates be established for lab tests on a regional, statewide, or
carrier basis.7 The DRA also mandated that the Consumer Price Index for All Urban
Consumers be used annually to adjust rates for inflation. Beginning July 1, 1984, each
carrier (i.e., Medicare Part B claims payment contractor) established its own payment
rates based on the prevailing charges for lab tests in its locality. These payment rates are
collectively known as the Clinical Laboratory Fee Schedule (CLFS).

CMS publishes an updated CLFS at least annually containing payment rates based on the
57 jurisdictions of the former Medicare Part B claims payment carriers. Although
15 MACs have largely replaced the Medicare Part B claims payment carriers, MACs
continue to administer the same payment policies created by the 57 carriers. The
2011 CLFS contains each carrier’s rate for 1,140 unique lab tests identified by CPT code,
including some genetic tests.8, 9

Annual Laboratory Meeting. In accordance with section 1833(h)(8)(B) of the Social
Security Act, CMS conducts an annual public meeting on payment rate recommendations
for new lab test codes developed by the AMA’s CPT Editorial Panel. The meeting is
intended to provide input on the nature of the new test codes and receive
recommendations concerning the determination of payment rates. In 2011, CMS

4
   National Human Genome Research Institute, National Institutes of Health. Accessed at 

http://www.genome.gov on January 25, 2012.
 
5
   CMS, Medicare National Coverage Determinations Manual [Internet-Only Manual], Pub.100-03, ch. 1, 

§§ 90.1 and 190.3. Accessed at http://www.cms.gov/Manuals/IOM/list.asp on January 25, 2012.
 
6
   Noridian Administrative Services, LCD ID Number L24308. Accessed at http://www.cms.gov/medicare-
coverage-database/license/ on April 25, 2012.

7
   Deficit Reduction Act of 1984, P.L. 98-369, § 2303(d), Social Security Act, § 1833(h).
 
8
   CPT, a numeric coding system maintained by the American Medical Association (AMA), is a uniform coding 

system consisting of descriptive terms and identifying codes that are used primarily to identify medical services 

and procedures furnished by physicians and other health care professionals. CPTs make up one part of the 

Healthcare Common Procedure Coding System (HCPCS) code set.

9
   CMS, 2011 Clinical Laboratory Fee Schedule. Accessed at https://www.cms.gov/ClinicalLabFeeSched on 

January 13, 2012.
 


OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
Page 4 – Marilyn Tavenner


followed the public meeting with an information session on 101 new CPT codes for
genetic tests that CMS plans to assign payment rates to in 2012. The 2012 meeting is
scheduled to be held on July 16.

Payment Methods for Genetic Tests
In 1992, AMA added a new section of CPT codes for genetic tests. These codes focused
on the laboratory procedure(s) used for a test rather than the substance or chemical
analyzed. This coding system was developed to accommodate rapidly developing
technologies. However, as stated in a pathology journal article, some health insurers
expressed concern with this method because it led to a lack of standardization and a lack
of specificity as to the test performed, which is discussed in greater detail below.10

Stacking. Until 2012, Medicare did not use single CPT codes for genetic tests as it does
for other lab tests (e.g., 81003-urinalysis automated without microscopy,
85610-prothrombin time). For nearly a decade, Medicare contractors, as well as other
health care insurers, have used a reimbursement method referred to as “stacking.”
Stacking is the use of multiple generic molecular diagnostic CPT codes (83890–83914) to
form the basis of reimbursement for a single genetic test.11 Payment rates for many of
these individual CPT codes are listed on the CLFS. Different laboratories may use
differing procedures to perform the same lab test; therefore, they use differing quantities
of CPT codes to file claims for the tests. As shown in Table 1, a cystic fibrosis profile at
one laboratory might be coded with a total of 29 units of 5 different CPT codes, while the
same test from another laboratory might be coded with a total of 89 units of 6 different
CPT codes.12




10
   Anne Paxton, Molecular CPT Codes Topple Old “Stacking” Codes, CAP Today, April 2011. Accessed at
http://www.cap.org on January 13, 2012. 
11
      Ibid. 
12
  L. Joan Logue, Genetic Testing Coverage and Reimbursement: A Provider’s Dilemma, Clinical Leadership
& Management Review, November/December 2003, pp. 346–350.  


OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
Page 5 – Marilyn Tavenner

Table 1: Example of a Cystic Fibrosis Profile Offered by Two Laboratories

 Lab A Cystic Fibrosis 32 Mutations
  Code                      Number of Units                    Medicare CLFS Rate
  83890                                   1                                 $5.60
  83894                                   1                                 $5.60
  83896                                 25                                $140.00
  83901                                   1                                $23.42
  83912                                   1                                 $5.60
   Total                                29                                $180.22
 Lab B Cystic Fibrosis 32 Mutations
  Code                      Number of Units                    Medicare CLFS Rate
  83890                                   1                                 $5.60
  83892                                   1                                 $5.60
  83894                                   1                                 $5.60
  83896                                 84                                $470.40
  83901                                   1                                $23.42
  83912                                   1                                 $5.60
   Total                                89                                $516.22
 Note: The source of this example erroneously listed the Medicare CLFS rate as $54.60 for 

 83912 for Lab B.

 Source: L. Joan Logue, Genetic Testing Coverage and Reimbursement: A Provider’s

 Dilemma, Clinical Leadership & Management Review, November/December 2003, 

 pp. 346–350.



Medicare rules do not address the quantity or configuration of stacking codes for genetic
tests. The lack of standardization results in wide variation in payment amounts for the
same genetic test. Another shortcoming of this reimbursement method is that it does not
provide specificity to the payer as to what was tested because the same set of codes is
used in a variety of genetic test types.

Effective January 1, 2012, CMS instructed MACs to include in claims for genetic tests
1 of the 101 new single CPT codes representing a genetic test as well as the underlying
stacked codes.13 The new, single CPT codes do not yet have a payment amount assigned
to them. For now, claims will be paid according to the payment rates assigned to the
underlying stacked codes. This new claim payment procedure may provide more
information to CMS on the quantities of stacked codes underlying a single genetic test
and the quantities and types of genetic tests provided to Medicare beneficiaries.
However, it does not resolve the issue of variation in payment amounts.

S Codes. Although most State Medicaid program and commercial health insurers
(e.g., FEHB plans) use the stacking method of reimbursement, some alternatively use
Healthcare Common Procedure Coding System (HCPCS) “S” codes. S codes are
assigned by the HCPCS Workgroup at the request of commercial insurers. They are not
reportable to Medicare. In contrast to stacking, a single S code captures all of the




13
  CMS, Recurring Update Notification, Pub. No. 100-04, Transmittal 2365, Change Request 7654, dated
December 9, 2011. 


OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
Page 6 – Marilyn Tavenner


components of the genetic test. One example of an S code is “S3818-complete gene
sequence analysis of the BRCA1 gene.”14

Medicare’s Role in Establishing the Payment Rates of Other Health Care Insurers
As the largest health insurer in the United States, Medicare has great influence on the
actions of other health care insurers. In fact, section 1903(i)(7) of the Social Security Act
prohibits State Medicaid program payments for lab tests that exceed the Medicare
payment amount. In addition, private health insurance plans closely monitor Medicare’s
coverage and reimbursement decisions.15 Therefore, it is important that CMS accurately
formulate the reimbursement rates for genetic tests.

VHA
Unlike other Federal health insurance programs (e.g., Medicare), VHA operates its own
medical centers and community-based outpatient clinics and permits more than
53,000 independent licensed health care practitioners to work within those facilities.
VHA is the largest integrated health care system in the United States, providing health
care to approximately 8.3 million veterans.16 In 2006, the Department of Veterans
Affairs launched the Genomic Medicine Program. The goals of the program are: (1) to
examine the potential of emerging genomic technologies, (2) to optimize medical care for
veterans, and (3) to enhance the development of tests and treatments for relevant
diseases.

METHODOLOGY

Surveys
From August through October 2011, we conducted an electronic survey of 50 State
Medicaid programs and 3 FEHB plans that pay for lab tests on a fee-for-service basis.17
We asked questions about their coverage policy for genetic laboratory tests; the methods
established for payment of claims for genetic laboratory tests; and the payment rates in
effect for the period January 1 through March 31, 2011, for 16 genetic tests by CPT
stacking code and 16 selected genetic tests by name. The 16 genetic tests by stacking
codes were selected because they are included in the set of stacking codes underlying the
101 new single genetic test codes. Appendix A contains lists of tests reviewed.

We received completed surveys from all 50 State Medicaid programs and 3 FEHB plans.
The three fee-for-service FEHB plans provide coverage to 90 percent of fee-for-service
enrollees in the FEHB program. Each of these national plans provides services through
local plans and networks. Within a single national plan, local plans and networks may
14
      AMA, HCPCS Level II Professional Edition, 2011, p. 313.
 
15
      Secretary’s Advisory Committee on Genetics, Health, and Society, Coverage and Reimbursement of Genetic

Tests and Services, February 2006, p. 25. Accessed at http://oba.od.nih.gov/oba/sacghs/reports/CR_report.pdf on 

January 25, 2012. 

16
    Accessed at http://www.va.gov/health/aboutVHA.asp on March 20, 2012.
 
17
    Staff from the Tennessee Medicaid program stated that 100 percent of recipients are enrolled in managed care 

plans; therefore, Tennessee does not pay for any lab tests on a fee-for-service basis. We did not include the 

Tennessee Medicaid program in our data collection. We included the District of Columbia, for a total of 50 State 

Medicaid programs.
 


OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
Page 7 – Marilyn Tavenner


have differing coverage policies and payment rates. While FEHB plans provided
payment rates representing all of their local plans and networks, they did not provide
coverage policy and payment methods for each individual plan or network. In total, we
received surveys from 29 of 58 FEHB local plans and/or networks.

Structured Interviews
We conducted structured interviews with both national and local VHA staff. We asked
questions regarding coverage policy and payment for genetic tests. We accessed VHA
lab test payment rates on publicly available Web sites. As previously stated, unlike
Medicare, Medicaid, and FEHB, VHA operates its own medical centers and privileges
and credentials its own providers to serve its members. Therefore, we used a different
data collection method with VHA than with the other health care insurers.

Standards
This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

Below, we present information provided to us through surveys and interviews in the areas
of coverage policies, payment methods, and payment rates.

Coverage Policies for Genetic Tests
We asked officials from each State Medicaid program, each FEHB plan, and VHA to
describe their organizations’ coverage policy for genetic tests.

State Medicaid Programs. Officials from all but one State Medicaid program described
some level of coverage for genetic tests. Officials from New Mexico stated that genetic
tests are generally not covered. Officials from 17 States stated that although genetic tests
are covered, their States have no specific policy addressing them. Officials from the
remainder of States described a variety of factors that influenced coverage decisions,
including performing genetic tests for the purpose of either diagnosis of a disease or
treatment (nine States), requiring prior authorization for either all or certain types of
genetic tests (eight States), and considering coverage on a case-by-case basis (six States).
The Alabama Medicaid program volunteered that it is working with a consultant to
develop a coverage policy.

FEHB Plans. Officials from each of the three national FEHB plans described some level
of coverage for genetic tests. At the time of our data collection, officials from one
national plan reported that, in the past, coverage for specific genetic tests was evaluated
for medical necessity on an individual basis. However, the plan had recently experienced
increased demand for genetic tests, so plan officials were working on a more robust
policy. Of the 29 local and network plans, 4 reported that coverage policies are
test-specific and 3 required preauthorization for genetic tests.




OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
Page 8 – Marilyn Tavenner


VHA. VHA places a strong emphasis on medical coverage decisionmaking by a patient’s
clinician(s). According to regulations found at 38 CFR 17.38(b), care referred to in the
“medical benefits package”18 will be provided to individuals only if it is determined by
appropriate health care professionals that the care is needed to promote, preserve, or
restore the health of the individual and is in accord with generally accepted standards of
medical practice. VHA officials reported to us that tests used to make a primary
diagnosis or to modify treatment are easily justified. A medical center’s pathologist
serves as a gatekeeper to evaluate the test ordered by a clinician against clinical
requirements.

Payment Methods
State Medicaid Programs. Thirty-nine State Medicaid programs reported that they paid
for genetic tests using only the stacking method. Two States reported that they paid for
genetic tests only by test name (e.g., by S code). Eight States reported using a
combination of these methods. One State reported that it did not cover genetic tests, and
therefore did not report a payment method.

Of the 47 State Medicaid programs that reported paying for genetic tests using the
stacking method, only Iowa determined a maximum quantity and combination of stacked
codes that it would reimburse for a given test. Iowa reported the maximum number and
combination of stacked codes for 6 of the 16 genetic tests on our survey. These
combinations are shown in Appendix B. Minnesota reported the set of stacked codes it
allowed for certain tests, but did not specify a maximum quantity for each of these codes.
These combinations are shown in Appendix C.

FEHB Plans. One national FEHB plan reported that it did not approve many genetic
tests. This plan noted that some tests do not have CPT codes associated with them; the
plan prices these tests based on available fee data. The plan is in the process of
developing a pricing strategy for an expected increase in usage of genetic tests. Another
national FEHB plan responded that payment for a genetic test is based on claim
information and contractual rates. The remaining national FEHB plan noted that
responses varied among the local plans, with some plans using stacked CPT codes and
some plans paying by test name.

VHA. Some VHA medical center laboratories can perform certain genetic tests onsite,
but the majority of genetic test specimens are sent to reference laboratories for
processing. VHA has national contracts with four reference laboratories. The contracts
contain a list price for each lab test offered. In addition, VHA’s regionally based service
networks, or individual medical centers within those networks, may negotiate prices
lower than contract list prices based on volume. Because genetic test volume has been
low, staff from one medical center reported that in most cases, the volume has not been
large enough to justify negotiating prices lower than list prices.



18
   The definition of “medical benefits package” can be found in 38 CFR § 17.38. It includes services such as
outpatient, hospital, and extended care. 


OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
Page 9 – Marilyn Tavenner


Payment Rates
We asked officials from each State Medicaid program and FEHB plan to provide us with
the payment rates in effect for January 1 through March 31, 2011, for 16 genetic tests by
CPT stacking code and 16 selected genetic tests by name. State Medicaid programs
provided their fee schedules for lab tests, representing the maximum payment rate
allowed for each test. (For actual claims, providers could have billed for less than the fee
schedule amount.) FEHB plans provided us with median claim payment amounts for lab
tests performed during the period of our review.

State Medicaid Programs. Appendix D compares State Medicaid program fee schedule
rates for 16 genetic tests by CPT stacking codes with Medicare CLFS payment rates.
Eight State Medicaid programs provided payment rates by test name. These prices are
shown in Appendix E. We note great variation in test prices; for example, the payment
rate for a BRCA1 gene analysis ranged from $1,000 in Pennsylvania to nearly $4,500 in
Iowa.

FEHB Plans. Appendix D compares FEHB plan median payment rates for 16 genetic
tests by CPT stacking code with Medicare CLFS payment rates. One national FEHB
plan provided prices for genetic tests by name. These prices are shown in Appendix F. If
the FEHB plan did not pay a lab test claim for a particular test, no price is listed. Similar
to State Medicaid programs, FEHB plans reported variation in tests prices. For example,
the AlloMap ranged from $2 to $3,658. Other tests had less price variation, such as the
Pathwork Tissue of Origin, which ranged from $5 to $38. One FEHB plan official noted
that the variation in payment rates is likely due to low test volume and services provided
by nonpreferred provider organizations. The plan is reviewing instances in which its
payment rates are higher than other insurers.’

VHA. VHA has national contracts with four laboratories: ARUP Laboratories,
Laboratory Corporation of America, Quest Diagnostics Nichols Institute, and Sonora
Quest Laboratories, LLC. Only one contractor lists prices by CPT code. We have not
included contract list prices in this memorandum because this information can be located
on the General Services Administration Web site.19

CONCLUSION

We have provided this information for CMS’s use in setting Medicare coverage and
payment policies for genetic tests. Because State Medicaid programs and private health
insurance plans closely monitor Medicare’s coverage and reimbursement decisions,
CMS’s formulation of reimbursement rates for genetic tests may be useful to them. As
one official from a State Medicaid program remarked, “Additional guidance from CMS
on genetic testing would be very helpful. We have struggled with payment of such tests
for the last couple of years.”



19
  General Services Administration, Medical Laboratory Testing and Analysis Services, Schedule 621 II.
Accessed at http://www.gsaelibrary.gsa.gov on February 24, 2012.


OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
Page 10 – Marilyn Tavenner


This report is being issued directly in final form because it contains no recommendations.
If you have comments or questions about this report, please provide them within 60 days.
Please refer to report number OEI-07-11-00011 in all correspondence.




OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
 Page 11 – Marilyn Tavenner


      APPENDIX A
      Genetic Tests Included in Review

 Genetic Tests by Current Procedural Terminology Stacking Code Included in Review
 Code                                                       Description
 83890                   Molecular diagnostics; molecular isolation or extraction, each nucleic acid type
                            Molecular diagnostics; isolation or extraction of highly purified nucleic acid,
 83891
                                                                                    each nucleic acid type
 83892                             Molecular diagnostics; enzymatic digestion, each enzyme treatment
                            Molecular diagnostics; separation by gel electrophoresis, each nucleic acid
 83894
                                                                                               preparation
 83896                                                   Molecular diagnostics; each nucleic acid probe
 83897                       Molecular diagnostics; nucleic acid transfer, each nucleic acid preparation
 83898                         Molecular diagnostics; amplification, target, each nucleic acid sequence
                            Molecular diagnostics; amplification, target, multiplex, first two nucleic acid
 83900
                                                                                                sequences
                          Molecular diagnostics; amplification, target multiplex, each additional nucleic
 83901
                                                                      acid sequence beyond the first two
 83902                                                      Molecular diagnostics; reverse transcription
                          Molecular diagnostics; mutation identification by sequencing, single segment,
 83904
                                                                                             each segment
 83907                               Molecular diagnostics; lysis of cells prior to nucleic acid extraction
                                 Molecular diagnostics; separation and identification by high resolution
 83909
                                                                                                 technique
 83912                                                   Molecular diagnostics; interpretation and report
                                Mutation identification by enzymatic ligation or primer extension, single
 83914
                                                                                  segment, each segment
 88271                                                         Molecular cytogenetics; each DNA probe
Source: American Medical Association, Current Procedural Terminology 2009 Standard Edition, pp. 276–292.




 Genetic Tests by Name Included in Review
 AlloMap 

 OncoTypeDX

 PathFinderTG 

 Pathwork Tissue of Origin

 VeriStrat

 ChemoFx 

 Oncotech EDR 

 MSH2 Gene Analysis 

 MLH1 Gene Analysis

 KRAS Gene Analysis 

 HFE Gene Analysis 

 F2 Gene Analysis

 CFTR Gene Analysis

 BRCA1 Gene Analysis 

 BRCA2 Gene Analysis 

 BCR/ABL1 Translocation Analysis 





 OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
 Page 12 – Marilyn Tavenner


      APPENDIX B

 Table B-1: Iowa Medicaid Program Quantities of Stacked Codes Allowed in Reimbursement for
 Selected Genetic Tests
 Current                                          Genetic Test
 Procedural        Pathwork                                  KRAS                   BCR/ABL1
                                                                       F2 Gene
 Terminology       Tissue of    VeriStrat     ChemoFX          Gene              Translocation
                                                                      Analysis
 Code                 Origin                               Analysis                  Analysis
 83890                                   1                                                     1
 83891                                   1                                                         1   1
 83892                                   1                                                     3
 83893                                   1
 83894                                   1                                                         1   1
 83896                                   1
 83897                                   1
 83898                                   1                                                     1   2   9
 83900                                   1
 83901                                   1
 83902                                   1                                                             1
 83903                                   1
 83904                                   1                                                         2
 83905                                   1
 83906                                   1
 83907                                   1                                                     1
 83908                                   1
 83909                                   1                    1                                2
 83912                                   1                                                     1   1   1
 83913                                   1
 83914                                                                                         4
 84999                                   1
 87230                                                                              1
 88104                                                                              1
 88230                                                                              1
 88233                                                                              1
 88235                                                                              1
 88237                                                                              1
 88239                                                                              1
 88305                                                                              1
 88313                                                                              1
 88358                                                                              1
 88381                                                                                         1
 88384                                   1
 88385                                   1
 88386                                   1
 89050                                                                              1
Source: Office of Inspector General analysis of Iowa Medicaid program survey response, 2011.




 OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
 Page 13 – Marilyn Tavenner


      APPENDIX C

 Table C-1: Minnesota Medicaid Program Stacked Codes Allowed in
 Reimbursement for Selected Genetic Tests
 Current                            Genetic Test
 Procedural
                CFTR Gene      HFE Gene    MLH1 Gene     MSH2 Gene
 Terminology
                  Analysis      Analysis      Analysis     Analysis
 Code
 83890                                  X                    X
 83891                                  X                                          X                X
 83892                                  X                                          X                X
 83893                                  X
 83894                                  X
 83896                                  X
 83897                                  X
 83898                                  X                    X                     X                X
 83900                                  X
 83901                                  X
 83902                                  X
 83903                                  X
 83904                                  X                                          X                X
 83905                                  X
 83906                                  X
 83909                                                                             X                X
 83912                                                       X                     X                X
Source: Office of Inspector General analysis of Minnesota Medicaid program survey response, 2011.




 OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
 Page 14 – Marilyn Tavenner


       APPENDIX D

 Table D-1: Medicare Clinical Laboratory Fee Schedule, State Medicaid Program, and
 Federal Employee Health Benefit* Payment Rates for Selected Genetic Test Codes
 Current                                                 State
 Procedural
               Insurer
 Terminology                        AK           AL            AR          AZ                        CA
 Code
                         Medicare                       $5.64    $5.55    $5.64     $5.64          $5.64
                         Medicaid                       $5.74    $5.55    $5.72     $5.45          $4.39
 83890                   FEHB 1                           N/A    $5.94      N/A       N/A            N/A
                         FEHB 2                           N/A      N/A      N/A   $107.50         $25.20
                         FEHB 3                         $5.00    $5.36    $6.72     $3.35          $4.86

                         Medicare                       $5.64    $5.55    $5.64     $5.64           $5.64
                         Medicaid                       $5.74    $4.00    $5.72     $5.45           $4.39
 83891                   FEHB 1                           N/A    $3.98    $6.45     $5.94           $5.94
                         FEHB 2                         $4.45    $6.19    $8.40     $5.88           $5.88
                         FEHB 3                        $31.00    $4.95    $4.89     $4.86           $4.86

                         Medicare                       $5.64    $5.55    $5.64     $5.64           $5.64
                         Medicaid                       $5.74    $5.55    $5.72     $5.45           $4.39
 83892                   FEHB 1                           N/A      N/A   $31.61       N/A           $5.94
                         FEHB 2                         $5.60   $15.10    $9.20     $6.19           $5.88
                         FEHB 3                        $79.11    $9.90    $7.46     $6.68           $9.90

                         Medicare                       $5.64    $5.55    $5.64     $5.64          $5.64
                         Medicaid                       $5.74    $5.00    $5.72     $5.45          $4.39
 83894                   FEHB 1                           N/A      N/A    $5.46       N/A          $5.94
                         FEHB 2                           N/A   $24.00   $19.00    $45.38         $11.31
                         FEHB 3                        $11.28   $12.44    $5.04     $5.09          $9.86

                         Medicare                       $5.64    $5.55    $5.64     $5.64          $5.64
                         Medicaid                       $5.74    $5.55    $5.72     $5.45          $4.39
 83896                   FEHB 1                           N/A    $5.49   $43.07     $5.46          $5.40
                         FEHB 2                         $5.60    $6.19   $28.00     $5.88          $5.88
                         FEHB 3                        $35.56    $9.90    $7.46    $13.15         $30.00

                         Medicare                       $5.64    $5.55    $5.64     $5.64           $5.64
                         Medicaid                       $5.74    $4.00    $5.72     $5.45           $4.39
 83897                   FEHB 1                           N/A      N/A      N/A       N/A             N/A
                         FEHB 2                           N/A      N/A   $55.00       N/A             N/A
                         FEHB 3                           N/A      N/A      N/A       N/A           $6.26

                         Medicare                      $23.58    $9.52   $23.58    $23.58         $23.58
                         Medicaid                      $24.01    $9.52   $23.94    $22.81         $18.35
 83898                   FEHB 1                           N/A   $24.85      N/A       N/A         $23.53
                         FEHB 2                        $14.00   $36.00   $55.00    $35.01         $35.01
                         FEHB 3                        $30.00   $19.38   $20.69    $22.45         $35.16

                         Medicare                     $47.18    $19.03   $47.18    $47.18         $47.18
                         Medicaid                        N/A    $13.00   $48.40    $45.62         $37.10
 83900                   FEHB 1                          N/A    $79.65   $48.94    $49.69         $30.99
                         FEHB 2                          N/A    $26.18   $46.84    $38.00         $40.36
                         FEHB 3                      $116.68    $16.94   $40.90    $23.68         $40.68
                                                                                    continued on next page
Note: N/A indicates that no price was reported for the test.
*FEHB.




 OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
Page 15 – Marilyn Tavenner

Table D-1: Medicare Clinical Laboratory Fee Schedule, State Medicaid Program, and
Federal Employee Health Benefit Payment Rates for Selected Genetic Test Codes
(Continued)
Current                                                 State
Procedural
              Insurer
Terminology                         AK          AL            AR          AZ             CA
Code
              Medicare           $23.58       $9.52       $23.58      $23.58          $23.58
              Medicaid           $24.01       $6.00       $23.94      $22.81          $18.35
83901         FEHB 1                N/A      $16.68       $21.08       $6.39          $18.55
              FEHB 2                N/A       $7.32       $42.67      $15.93          $12.27
              FEHB 3            $156.26     $136.64      $204.33      $20.80         $159.97

              Medicare           $12.09       $5.55       $19.97      $19.97          $19.97
              Medicaid           $12.31       $4.00       $20.26      $19.31          $15.53
83902         FEHB 1                N/A         N/A        $5.47       $5.47          $17.15
              FEHB 2                N/A         N/A          N/A         N/A             N/A
              FEHB 3             $31.00       $9.90        $8.79      $19.00           $9.90

              Medicare           $23.58       $9.52       $23.58      $23.58          $23.58
              Medicaid           $24.01       $7.00       $23.94      $22.81          $18.35
83904         FEHB 1                N/A         N/A       $23.54         N/A          $23.54
              FEHB 2             $37.86         N/A          N/A      $35.01          $35.01
              FEHB 3             $47.16      $83.38       $56.73      $89.79         $141.00

              Medicare           $18.80      $18.80       $18.80      $18.80          $18.80
              Medicaid           $19.13      $13.00       $19.28      $18.17          $14.78
83907         FEHB 1                N/A      $58.80       $58.80         N/A             N/A
              FEHB 2                N/A         N/A          N/A         N/A             N/A
              FEHB 3             $16.92      $16.21       $24.87      $17.88          $16.21

              Medicare           $23.58       $9.52       $23.58      $23.58          $23.58
              Medicaid           $24.01       $7.00       $24.20      $22.81          $18.55
83909         FEHB 1                N/A       $6.13       $20.27      $14.03          $15.49
              FEHB 2             $13.00      $13.49       $23.42       $6.39          $13.49
              FEHB 3             $49.75       $9.69       $20.56      $14.59          $20.34

              Medicare            $5.64       $5.55        $5.64       $5.64           $5.64
              Medicaid            $5.74       $5.55        $5.72       $5.45           $4.39
83912         FEHB 1                N/A       $4.43        $6.89       $5.46           $5.94
              FEHB 2              $4.23      $37.60       $19.20      $25.80           $5.88
              FEHB 3             $11.28       $4.95        $8.40       $5.66           $4.95

              Medicare           $23.58       $9.52       $23.58      $23.58          $23.58
              Medicaid           $24.01       $7.00       $24.20      $22.81          $18.55
83914         FEHB 1                N/A      $39.97       $73.80       $3.20          $15.49
              FEHB 2                N/A         N/A       $21.99      $13.11          $15.51
              FEHB 3            $127.32     $103.78      $271.04      $50.58         $165.78

              Medicare           $30.14      $23.42       $30.14      $30.14          $30.14
              Medicaid           $30.68      $21.00       $30.59      $29.15          $23.44
88271         FEHB 1                N/A         N/A       $30.66         N/A             N/A
              FEHB 2                N/A         N/A          N/A         N/A             N/A
              FEHB 3            $120.56     $100.00       $82.92      $92.32          $93.56
                                                                        continued on next page




OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
Page 16 – Marilyn Tavenner

Table D-1: Medicare Clinical Laboratory Fee Schedule, State Medicaid Program, and
Federal Employee Health Benefit Payment Rates for Selected Genetic Test Codes
(Continued)
Current                                                 State
Procedural
              Insurer
Terminology                        CO           CT            DC          DE              FL
Code
              Medicare           $5.64        $5.64        $5.64       $5.64           $3.59
              Medicaid           $4.97        $5.32        $3.00       $5.53           $2.00
83890         FEHB 1               N/A          N/A          N/A         N/A           $8.97
              FEHB 2             $5.36          N/A        $4.76         N/A          $20.76
              FEHB 3             $2.54        $5.54        $5.00       $4.78           $4.00

              Medicare           $5.64        $5.64        $5.64       $5.64            $3.59
              Medicaid           $4.97        $5.32       $88.00       $5.53            $2.00
83891         FEHB 1             $5.78        $5.78        $5.94         N/A            $5.78
              FEHB 2             $4.51        $5.06        $5.88         N/A            $5.88
              FEHB 3             $4.95        $3.44        $5.00       $7.62            $4.95

              Medicare           $5.64        $5.64        $5.64       $5.64            $3.59
              Medicaid           $4.97        $5.32        $3.00       $5.53            $2.00
83892         FEHB 1             $5.60        $5.25        $5.94         N/A            $5.25
              FEHB 2             $5.20        $5.88        $6.19       $2.35            $6.04
              FEHB 3             $9.90        $6.88        $9.35       $9.28            $9.90

              Medicare           $5.64        $5.64        $5.64       $5.64           $3.59
              Medicaid           $4.97        $5.32        $3.00       $5.53           $2.00
83894         FEHB 1             $5.94          N/A        $5.94         N/A           $5.94
              FEHB 2             $5.36          N/A        $4.76       $2.35          $24.00
              FEHB 3             $7.63        $7.25        $5.00      $10.00           $8.31

              Medicare           $5.64        $5.64        $5.64       $5.64            $3.59
              Medicaid           $4.97        $5.32        $3.00       $5.53            $2.49
83896         FEHB 1             $5.25        $5.25        $5.70         N/A            $5.25
              FEHB 2             $4.09        $5.88        $5.32         N/A            $5.88
              FEHB 3             $9.90       $13.76       $15.00      $11.14            $9.90

              Medicare           $5.64        $5.64        $5.64       $5.64            $3.59
              Medicaid           $4.97        $5.32       $10.00       $5.53            $2.00
83897         FEHB 1               N/A          N/A          N/A         N/A              N/A
              FEHB 2               N/A          N/A          N/A         N/A              N/A
              FEHB 3             $5.60          N/A          N/A         N/A            $8.31

              Medicare          $23.58       $23.58       $23.58      $23.58          $23.58
              Medicaid          $20.83       $22.25       $11.00      $23.11           $2.00
83898         FEHB 1            $23.53       $22.65       $24.85         N/A          $24.85
              FEHB 2            $15.33       $24.02       $19.91         N/A          $35.01
              FEHB 3            $20.69       $42.20       $10.00      $27.28          $35.00

              Medicare          $47.18       $47.18       $47.18      $47.18          $47.18
              Medicaid          $44.31       $44.03       $24.36      $46.24          $32.79
83900         FEHB 1            $34.42      $104.41       $30.99         N/A          $60.18
              FEHB 2            $25.16          N/A       $40.36         N/A          $23.98
              FEHB 3            $20.86       $28.81        $5.18      $39.99          $27.17
                                                                        continued on next page




OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
Page 17 – Marilyn Tavenner

Table D-1: Medicare Clinical Laboratory Fee Schedule, State Medicaid Program, and
Federal Employee Health Benefit Payment Rates for Selected Genetic Test Codes
(Continued)
Current                                                 State
Procedural
              Insurer
Terminology                        CO           CT            DC          DE               FL
Code
              Medicare           $23.58      $23.58       $23.58       $23.58          $23.58
              Medicaid           $20.83      $22.25       $10.00       $23.11          $16.00
83901         FEHB 1             $16.68         N/A       $18.56          N/A          $22.32
              FEHB 2             $15.57         N/A       $19.91          N/A          $11.99
              FEHB 3            $144.84     $160.01       $70.00      $159.38         $160.11

              Medicare           $19.97      $19.97       $19.97       $19.97          $15.28
              Medicaid           $17.63      $18.84        $9.00       $19.57          $10.50
83902         FEHB 1             $21.04         N/A          N/A          N/A          $16.86
              FEHB 2                N/A         N/A          N/A          N/A             N/A
              FEHB 3              $9.90      $27.70       $19.00       $31.00          $19.68

              Medicare           $23.58      $23.58       $23.58       $23.58          $23.58
              Medicaid           $20.83      $22.25       $32.00       $23.11          $16.00
83904         FEHB 1                N/A         N/A          N/A          N/A          $20.98
              FEHB 2             $35.01      $13.02          N/A          N/A          $35.01
              FEHB 3             $93.68      $59.15       $54.42      $122.07          $89.79

              Medicare           $18.80      $18.80       $17.28       $18.80          $18.80
              Medicaid           $12.54      $17.54        $8.92       $18.42          $13.06
83907         FEHB 1             $58.80         N/A          N/A          N/A          $15.87
              FEHB 2                N/A         N/A          N/A          N/A             N/A
              FEHB 3             $13.00      $33.63       $25.20       $25.05          $13.00

              Medicare           $23.58      $23.58       $23.58       $23.58          $23.58
              Medicaid           $15.74      $22.01       $12.18       $23.11          $16.39
83909         FEHB 1             $18.75      $52.19       $24.85          N/A          $30.26
              FEHB 2             $22.40      $13.26       $14.83          N/A          $11.96
              FEHB 3             $10.35      $14.41        $2.59       $19.99          $13.58

              Medicare            $5.64       $5.64        $5.64        $5.64           $3.59
              Medicaid            $5.25       $2.66        $3.00        $5.53          $10.18
83912         FEHB 1              $5.25       $5.25        $5.94          N/A           $5.94
              FEHB 2              $4.09       $4.85        $5.88        $2.35           $5.88
              FEHB 3              $4.95       $5.54        $5.00        $5.57           $4.95

              Medicare           $23.58      $23.58       $23.58       $23.58          $23.58
              Medicaid           $15.74      $22.01       $12.18       $23.11          $16.39
83914         FEHB 1             $33.02         N/A       $15.49          N/A          $18.20
              FEHB 2             $11.86      $19.17       $19.17          N/A          $11.99
              FEHB 3            $287.90     $392.32       $82.88      $383.12         $394.19

              Medicare           $30.14      $30.14       $30.14       $30.14          $20.37
              Medicaid           $26.61      $28.43       $84.00       $29.54          $14.00
88271         FEHB 1             $48.00         N/A          N/A          N/A          $31.75
              FEHB 2                N/A         N/A       $68.93          N/A          $76.00
              FEHB 3            $179.58     $232.56       $91.00       $23.39          $78.86
                                                                         continued on next page




OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
Page 18 – Marilyn Tavenner

Table D-1: Medicare Clinical Laboratory Fee Schedule, State Medicaid Program, and
Federal Employee Health Benefit Payment Rates for Selected Genetic Test Codes
(Continued)
Current                                                 State
Procedural
              Insurer
Terminology                        GA           HI            IA          ID               IL
Code
              Medicare           $5.55        $5.64        $5.64       $5.64            $5.64
              Medicaid           $4.96        $5.54        $5.36       $5.60            $5.25
83890         FEHB 1             $7.35          N/A       $56.32         N/A            $7.64
              FEHB 2             $7.30          N/A          N/A         N/A              N/A
              FEHB 3             $4.34          N/A        $7.00       $6.66            $7.00

              Medicare           $5.55        $5.64        $5.64       $5.64            $5.64
              Medicaid           $4.96        $5.54        $5.36       $5.60            $5.25
83891         FEHB 1             $5.94          N/A          N/A       $5.78            $2.92
              FEHB 2             $5.88          N/A          N/A         N/A            $7.81
              FEHB 3             $4.95        $7.42        $6.52       $4.45            $4.95

              Medicare           $5.55        $5.64        $5.64       $5.64            $5.64
              Medicaid           $4.96        $5.54        $5.36       $5.60            $5.05
83892         FEHB 1             $5.46          N/A          N/A         N/A              N/A
              FEHB 2             $5.94          N/A          N/A         N/A            $7.00
              FEHB 3             $9.90       $15.20       $21.00         N/A            $9.90

              Medicare           $5.55        $5.64        $5.64       $5.64           $5.64
              Medicaid           $4.96        $5.54        $5.36       $5.60           $5.05
83894         FEHB 1             $5.26          N/A          N/A         N/A             N/A
              FEHB 2            $14.94          N/A          N/A         N/A          $14.94
              FEHB 3             $5.46       $19.00       $12.00       $3.94           $5.85

              Medicare           $5.55        $5.64        $5.64       $5.64           $5.64
              Medicaid           $4.96        $5.54        $5.36       $5.60           $5.25
83896         FEHB 1             $5.46          N/A       $45.07         N/A           $9.26
              FEHB 2             $5.88          N/A          N/A         N/A          $10.64
              FEHB 3             $9.90        $7.23       $14.00      $30.00           $9.90

              Medicare           $5.55        $5.64        $5.64       $5.64            $5.64
              Medicaid           $4.96        $5.54        $5.36       $5.60            $5.25
83897         FEHB 1               N/A          N/A          N/A         N/A              N/A
              FEHB 2               N/A          N/A          N/A         N/A              N/A
              FEHB 3             $4.41        $7.23          N/A         N/A            $7.42

              Medicare           $5.40       $23.58       $23.58       $5.80          $23.58
              Medicaid           $4.83       $23.17       $22.40       $5.75          $21.90
83898         FEHB 1            $24.19          N/A      $218.52      $22.66          $36.54
              FEHB 2            $35.01          N/A          N/A         N/A          $36.00
              FEHB 3            $10.00      $168.02       $34.00      $32.94          $20.34

              Medicare          $10.82       $47.18       $47.18      $11.58          $47.18
              Medicaid           $9.67       $28.10       $44.82      $11.50          $28.10
83900         FEHB 1            $65.42          N/A          N/A         N/A          $44.85
              FEHB 2            $37.47          N/A          N/A         N/A          $32.47
              FEHB 3            $10.56       $60.52       $78.27      $47.78          $34.00
                                                                        continued on next page




OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
Page 19 – Marilyn Tavenner

Table D-1: Medicare Clinical Laboratory Fee Schedule, State Medicaid Program, and
Federal Employee Health Benefit Payment Rates for Selected Genetic Test Codes
(Continued)
Current                                                 State
Procedural
              Insurer
Terminology                        GA            HI           IA           ID               IL
Code
              Medicare            $5.40      $23.58       $23.58        $5.80          $23.58
              Medicaid            $4.83      $23.17       $22.40        $5.75          $21.90
83901         FEHB 1             $24.85         N/A          N/A          N/A          $12.26
              FEHB 2             $15.00         N/A          N/A          N/A          $22.88
              FEHB 3             $73.92     $665.72        $5.22       $93.91         $221.00

              Medicare           $17.82      $19.97       $19.97        $5.80          $19.97
              Medicaid           $15.92      $19.61       $18.97        $5.75          $18.50
83902         FEHB 1              $5.26         N/A          N/A          N/A          $40.80
              FEHB 2             $36.60         N/A          N/A          N/A             N/A
              FEHB 3             $19.00         N/A       $23.00       $14.01          $23.00

              Medicare            $5.40      $23.58       $23.58        $5.80          $23.58
              Medicaid            $4.83      $23.17       $22.40        $5.75          $21.90
83904         FEHB 1             $35.98         N/A          N/A          N/A             N/A
              FEHB 2             $35.01         N/A          N/A          N/A             N/A
              FEHB 3             $32.07     $272.34       $90.00        $0.00         $371.01

              Medicare           $18.80      $18.80       $18.80       $18.80          $18.80
              Medicaid           $16.79      $13.06       $17.86       $18.66          $11.19
83907         FEHB 1             $33.02         N/A          N/A          N/A             N/A
              FEHB 2                N/A         N/A          N/A          N/A             N/A
              FEHB 3             $17.88         N/A       $22.00       $13.12          $17.88

              Medicare            $5.40      $23.58       $23.58        $5.80          $23.58
              Medicaid            $4.83      $16.39       $22.40        $5.75          $14.05
83909         FEHB 1             $30.27         N/A          N/A       $30.00         $102.33
              FEHB 2             $13.49         N/A          N/A          N/A          $12.26
              FEHB 3             $12.29      $40.75       $48.00      $345.60          $17.25

              Medicare            $5.55       $5.64        $5.64        $5.64           $5.64
              Medicaid            $4.96       $5.60          N/A        $5.60           $5.25
83912         FEHB 1              $5.46         N/A       $54.95        $5.25           $9.26
              FEHB 2              $5.88         N/A          N/A          N/A          $10.69
              FEHB 3              $4.95       $8.40        $7.00        $5.36          $22.33

              Medicare            $5.40      $23.58       $23.58        $5.80          $23.58
              Medicaid            $4.83      $16.39       $22.40        $5.75          $14.05
83914         FEHB 1             $24.85         N/A          N/A       $38.82           $6.14
              FEHB 2             $18.74         N/A          N/A          N/A          $12.69
              FEHB 3            $215.51     $394.19       $82.88      $229.04         $340.00

              Medicare           $30.14      $30.14       $30.14       $20.37          $20.37
              Medicaid           $26.94      $29.60       $28.63       $20.22          $18.90
88271         FEHB 1             $30.00         N/A          N/A          N/A             N/A
              FEHB 2             $88.95         N/A          N/A          N/A             N/A
              FEHB 3             $86.04         N/A      $442.00       $51.98         $109.50
                                                                         continued on next page




OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
 Page 20 – Marilyn Tavenner

 Table D-1: Medicare Clinical Laboratory Fee Schedule, State Medicaid Program, and
 Federal Employee Health Benefit Payment Rates for Selected Genetic Test Codes
 (Continued)
 Current                                                 State
 Procedural
               Insurer
 Terminology                         IN         KS*            KY          LA                                                           MA
 Code
                        Medicare                       $5.64       $3.29/$5.64*                 $5.55              $5.64              $5.64
                        Medicaid                       $5.54              $5.54                 $5.55              $4.15              $4.18
 83890                  FEHB 1                         $8.77                N/A                   N/A                N/A              $9.36
                        FEHB 2                           N/A                N/A                 $5.65             $10.83                N/A
                        FEHB 3                         $7.18              $5.55                 $4.55              $7.24              $6.26

                        Medicare                       $5.64       $3.29/$5.64*                 $5.55               $5.64             $5.64
                        Medicaid                       $5.54              $5.54                 $5.55               $4.56             $4.18
 83891                  FEHB 1                         $4.26              $6.01                 $9.64               $5.04             $9.36
                        FEHB 2                         $5.06                N/A                 $5.88               $5.88             $5.88
                        FEHB 3                         $3.51              $4.95                 $2.92               $4.95             $6.26

                        Medicare                      $5.64        $3.29/$5.64*                $5.55               $5.64              $5.64
                        Medicaid                      $5.54               $5.54                $5.55               $4.15              $4.18
 83892                  FEHB 1                          N/A               $5.94                $5.25              $16.52                N/A
                        FEHB 2                       $14.94                 N/A               $14.94               $7.05              $5.88
                        FEHB 3                        $7.90               $9.90               $10.66               $9.90              $6.26

                        Medicare                      $5.64        $3.29/$5.64*                $5.55               $5.64              $5.64
                        Medicaid                      $5.54               $5.54                $5.55               $4.15              $4.18
 83894                  FEHB 1                          N/A               $5.94                  N/A              $28.00                N/A
                        FEHB 2                       $24.00                 N/A               $24.00              $24.00                N/A
                        FEHB 3                        $7.63               $5.00               $16.53               $8.88             $16.20

                        Medicare                      $5.64        $3.29/$5.64*                $5.55               $5.64              $5.64
                        Medicaid                      $5.54               $5.54                $5.55               $4.15              $4.18
 83896                  FEHB 1                        $5.60               $5.46                $5.25              $16.52              $9.36
                        FEHB 2                        $5.88                 N/A                $5.77               $5.88              $5.88
                        FEHB 3                       $23.69               $9.90               $19.52               $9.90             $12.52

                        Medicare                       $5.64      $3.29/ $5.64*                 $5.55              $5.64             $5.64
                        Medicaid                       $5.54              $5.54                 $5.55              $4.56             $4.18
 83897                  FEHB 1                           N/A                N/A                   N/A             $23.80               N/A
                        FEHB 2                           N/A                N/A                   N/A                N/A               N/A
                        FEHB 3                           N/A                N/A                   N/A             $15.52           $111.32

                        Medicare                     $23.58               $23.58              $23.58              $23.58              $6.14
                        Medicaid                     $23.17               $21.60              $23.58              $17.32              $4.55
 83898                  FEHB 1                       $23.42               $23.75                 N/A              $21.08             $16.42
                        FEHB 2                       $35.01                  N/A              $30.01              $35.51                N/A
                        FEHB 3                       $26.94               $43.89              $20.11              $20.34             $29.15

                        Medicare                     $47.18               $47.18              $47.18              $47.18             $12.29
                        Medicaid                     $46.84               $39.81              $47.18              $19.60              $9.11
 83900                  FEHB 1                       $63.24               $92.46                 N/A             $106.02                N/A
                        FEHB 2                       $24.57                  N/A              $24.57              $40.36                N/A
                        FEHB 3                       $29.37               $41.12              $31.77              $36.02             $46.50
                                                                                                                       continued on next page
* Four States (CA, KS, MO, and NY) are divided into multiple Medicare carrier jurisdictions. Each jurisdiction may have a different price for
some Current Procedural Terminology codes. In jurisdictions where prices differ, differences are signified using “/” between each
jurisdiction’s price.




 OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
 Page 21 – Marilyn Tavenner

 Table D-1: Medicare Clinical Laboratory Fee Schedule, State Medicaid Program, and
 Federal Employee Health Benefit Payment Rates for Selected Genetic Test Codes
 (Continued)
 Current                                                 State
 Procedural
               Insurer
 Terminology                         IN         KS*            KY          LA                                                          MA
 Code
                        Medicare                     $23.58               $23.58              $23.58              $23.58             $6.14
                        Medicaid                     $23.17                $5.54              $23.58              $19.04             $4.55
 83901                  FEHB 1                       $30.15                  N/A                 N/A              $12.26               N/A
                        FEHB 2                       $12.26                  N/A              $12.26              $37.13               N/A
                        FEHB 3                       $87.08              $960.00             $157.82             $159.38           $116.05

                        Medicare                     $19.97               $19.97              $19.97              $19.97              $5.80
                        Medicaid                     $19.61                  N/A              $19.97              $16.11              $4.29
 83902                  FEHB 1                          N/A                $5.47              $41.40                 N/A              $5.26
                        FEHB 2                          N/A                  N/A                 N/A                 N/A                N/A
                        FEHB 3                       $12.43               $17.67               $5.00              $40.66             $13.09

                        Medicare                     $23.58               $23.58              $23.58              $23.58              $6.14
                        Medicaid                     $23.17               $21.60              $23.58              $19.04              $4.55
 83904                  FEHB 1                       $16.25                  N/A                 N/A                 N/A             $22.66
                        FEHB 2                       $13.02                  N/A                 N/A                 N/A                N/A
                        FEHB 3                       $44.04              $347.74              $43.22           $1,087.05             $71.88

                        Medicare                      $18.80              $18.80              $12.65              $18.80             $18.80
                        Medicaid                      $18.66              $15.86              $12.65              $15.34             $13.93
 83907                  FEHB 1                        $30.00                 N/A                 N/A                 N/A                N/A
                        FEHB 2                           N/A                 N/A                 N/A                 N/A                N/A
                        FEHB 3                        $20.64              $16.21              $13.00              $20.56             $13.00

                        Medicare                      $23.58              $23.58              $23.58              $23.58              $6.14
                        Medicaid                      $23.42              $19.91              $23.58              $19.25              $4.55
 83909                  FEHB 1                        $24.21              $30.27                 N/A               $6.13                N/A
                        FEHB 2                        $13.02                 N/A              $12.26              $12.26                N/A
                        FEHB 3                        $21.62              $21.91              $11.65              $24.01             $23.25

                        Medicare                       $5.64       $3.29/$5.64*                $5.55               $5.64              $5.64
                        Medicaid                       $5.54              $5.54                $5.55               $4.15              $4.18
 83912                  FEHB 1                         $5.60              $5.46                $5.25              $17.96              $7.31
                        FEHB 2                         $4.85                N/A                $5.65               $8.17             $31.86
                        FEHB 3                         $4.15              $4.95               $14.72               $5.74              $6.26

                        Medicare                     $23.58               $23.58              $23.58              $23.58             $6.14
                        Medicaid                     $23.42               $19.91              $23.58              $19.25             $8.75
 83914                  FEHB 1                       $14.78               $34.30                 N/A              $39.97               N/A
                        FEHB 2                       $19.17                  N/A              $12.28              $12.28               N/A
                        FEHB 3                       $94.32              $232.50             $327.04              $51.03           $232.50

                        Medicare                      $20.37              $30.14              $20.37              $30.14             $30.14
                        Medicaid                      $20.00              $25.44              $20.37              $24.32             $22.35
 88271                  FEHB 1                        $69.27                 N/A                 N/A              $31.75                N/A
                        FEHB 2                           N/A                 N/A                 N/A                 N/A                N/A
                        FEHB 3                        $76.08             $168.86              $71.75              $40.04             $66.88
                                                                                                                       continued on next page
* Four States (CA, KS, MO, and NY) are divided into multiple Medicare carrier jurisdictions. Each jurisdiction may have a different price for
some Current Procedural Terminology codes. In jurisdictions where prices differ, differences are signified using “/” between each
jurisdiction’s price.




 OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
 Page 22 – Marilyn Tavenner

 Table D-1: Medicare Clinical Laboratory Fee Schedule, State Medicaid Program, and
 Federal Employee Health Benefit Payment Rates for Selected Genetic Test Codes
 (Continued)
 Current                                                 State
 Procedural
               Insurer
 Terminology                        MD           ME            MI         MN                                                          MO*
 Code
                        Medicare                       $5.64               $5.64               $5.64                $5.64     $3.29/$5.64*
                        Medicaid                       $4.27               $5.67               $4.41                $5.64            $3.07
 83890                  FEHB 1                         $5.94                 N/A                 N/A                  N/A              N/A
                        FEHB 2                         $4.76                 N/A                 N/A                  N/A          $51.82
                        FEHB 3                         $5.00               $6.18               $5.89                $8.09            $4.71

                        Medicare                       $5.64               $5.64               $5.64               $5.64      $3.29/$5.64*
                        Medicaid                       $4.27               $5.54               $4.41               $5.64             $3.07
 83891                  FEHB 1                         $5.79               $5.04                 N/A              $81.18             $5.78
                        FEHB 2                         $4.76               $4.56               $4.23                 N/A             $5.88
                        FEHB 3                         $4.95               $5.54               $6.16               $8.09             $4.95

                        Medicare                       $5.64               $5.64               $5.64               $5.64      $3.29/$5.64*
                        Medicaid                       $4.27               $5.67               $4.42               $5.64             $3.07
 83892                  FEHB 1                         $5.25                 N/A                 N/A              $13.60             $5.25
                        FEHB 2                         $5.88                 N/A               $5.88                 N/A             $5.88
                        FEHB 3                         $9.90               $6.26               $9.72               $8.09             $9.90

                        Medicare                       $5.64               $5.64               $5.64               $5.64      $3.29/$5.64*
                        Medicaid                       $4.27               $5.67               $4.41               $5.64             $3.07
 83894                  FEHB 1                         $5.36                 N/A                 N/A              $16.15               N/A
                        FEHB 2                         $4.76                 N/A                 N/A                 N/A             $8.26
                        FEHB 3                         $5.00              $15.45               $5.60               $8.09             $5.26

                        Medicare                       $5.64               $5.64               $5.64                $5.64     $3.29/$5.64*
                        Medicaid                       $4.27               $5.67               $4.41                $5.64            $3.07
 83896                  FEHB 1                         $5.46               $5.04                 N/A                  N/A            $5.25
                        FEHB 2                         $4.76                 N/A                 N/A                  N/A            $9.02
                        FEHB 3                         $9.90              $20.28              $43.91                $8.87          $11.02

                        Medicare                       $5.64               $5.64               $5.64               $5.64      $3.29/$5.64*
                        Medicaid                       $4.27               $5.54               $4.41               $5.64             $3.07
 83897                  FEHB 1                           N/A                 N/A                 N/A                 N/A               N/A
                        FEHB 2                           N/A                 N/A                 N/A                 N/A               N/A
                        FEHB 3                           N/A               $9.02                 N/A              $41.61               N/A

                        Medicare                     $14.32                $6.14              $23.58              $23.58             $23.58
                        Medicaid                     $10.84                $6.03              $15.90              $23.58             $18.07
 83898                  FEHB 1                       $22.65                  N/A                 N/A                 N/A                N/A
                        FEHB 2                       $19.91                  N/A              $35.97                 N/A             $16.22
                        FEHB 3                       $15.00               $27.28              $31.63              $33.85             $46.00

                        Medicare                     $28.65              $12.29               $47.18              $47.18            $47.18
                        Medicaid                     $21.66              $12.20               $36.84              $47.18            $44.06
 83900                  FEHB 1                       $29.89             $147.00                  N/A             $104.55           $104.41
                        FEHB 2                       $40.36              $24.57               $32.47                 N/A            $40.36
                        FEHB 3                       $12.00              $13.23               $51.52              $42.60            $28.33
                                                                                                                       continued on next page
* Four States (CA, KS, MO, and NY) are divided into multiple Medicare carrier jurisdictions. Each jurisdiction may have a different price for
some Current Procedural Terminology codes. In jurisdictions where prices differ, differences are signified using “/” between each
jurisdiction’s price.




 OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
 Page 23 – Marilyn Tavenner

 Table D-1: Medicare Clinical Laboratory Fee Schedule, State Medicaid Program, and
 Federal Employee Health Benefit Payment Rates for Selected Genetic Test Codes
 (Continued)
 Current                                                 State
 Procedural
               Insurer
 Terminology                        MD           ME            MI         MN                                                          MO*
 Code
                        Medicare                      $14.32               $6.14              $23.58              $23.58            $23.58
                        Medicaid                      $10.84               $6.03              $18.42              $23.58            $22.02
 83901                  FEHB 1                        $24.76              $21.08                 N/A                 N/A               N/A
                        FEHB 2                        $22.88              $12.31              $12.26                 N/A            $12.28
                        FEHB 3                        $95.00              $88.40             $467.82               $0.90           $114.73

                        Medicare                      $14.32               $5.80              $19.97              $16.56             $19.97
                        Medicaid                      $10.39               $5.69              $15.58              $16.56             $18.65
 83902                  FEHB 1                         $5.26                 N/A                 N/A                 N/A              $5.26
                        FEHB 2                           N/A                 N/A                 N/A                 N/A                N/A
                        FEHB 3                        $13.10              $46.30              $31.00              $37.08             $20.00

                        Medicare                      $14.32               $6.14              $23.58              $23.58             $23.58
                        Medicaid                      $10.84               $6.03              $18.42              $23.58             $22.02
 83904                  FEHB 1                        $22.66                 N/A                 N/A                 N/A                N/A
                        FEHB 2                        $12.18                 N/A              $35.97                 N/A             $44.38
                        FEHB 3                        $89.79             $186.00             $447.48              $24.61             $31.19

                        Medicare                      $18.80              $18.80               $6.81              $18.80             $18.80
                        Medicaid                      $14.21              $18.66               $5.08              $18.80             $17.55
 83907                  FEHB 1                           N/A              $58.80                 N/A                 N/A                N/A
                        FEHB 2                           N/A                 N/A                 N/A                 N/A                N/A
                        FEHB 3                        $16.21              $20.85              $18.53              $26.97             $19.00

                        Medicare                      $14.32               $6.14              $23.58              $23.58             $23.58
                        Medicaid                      $10.84               $6.10              $18.42              $23.58             $22.02
 83909                  FEHB 1                        $32.17                 N/A                 N/A                 N/A             $52.19
                        FEHB 2                        $13.49              $12.26              $12.88                 N/A             $13.49
                        FEHB 3                        $14.88              $23.25              $25.76              $17.25             $20.34

                        Medicare                       $5.64                $5.64              $5.64               $5.64      $3.29/$5.64*
                        Medicaid                       $5.60                $5.67              $4.14               $5.64             $3.07
 83912                  FEHB 1                         $5.25                  N/A                N/A              $46.75             $5.25
                        FEHB 2                         $5.60                $8.09              $5.06                 N/A             $6.94
                        FEHB 3                         $5.00                $5.69             $26.70              $30.98             $4.95

                        Medicare                     $14.32                $6.14              $23.58              $23.58            $23.58
                        Medicaid                     $10.84                $6.10              $18.42              $23.58            $22.02
 83914                  FEHB 1                          N/A               $73.80                 N/A                 N/A               N/A
                        FEHB 2                       $19.17               $12.26              $12.28                 N/A            $12.27
                        FEHB 3                      $181.30              $232.50              $51.52               $0.90           $142.38

                        Medicare                      $30.14              $30.14              $20.37              $30.14            $30.14
                        Medicaid                      $22.80              $31.27              $16.07              $30.14            $28.14
 88271                  FEHB 1                           N/A              $28.45                 N/A                 N/A               N/A
                        FEHB 2                        $41.90                 N/A                 N/A                 N/A               N/A
                        FEHB 3                        $91.00             $241.66              $93.56              $26.52           $126.12
                                                                                                                       continued on next page
* Four States (CA, KS, MO, and NY) are divided into multiple Medicare carrier jurisdictions. Each jurisdiction may have a different price for
some Current Procedural Terminology codes. In jurisdictions where prices differ, differences are signified using “/” between each
jurisdiction’s price.




 OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
Page 24 – Marilyn Tavenner

Table D-1: Medicare Clinical Laboratory Fee Schedule, State Medicaid Program, and
Federal Employee Health Benefit Payment Rates for Selected Genetic Test Codes
(Continued)
Current                                                 State
Procedural
              Insurer
Terminology                        MS           MT            NC          ND             NE
Code
              Medicare           $5.64        $5.64        $5.64       $5.64           $5.64
              Medicaid           $5.17        $5.64        $5.10       $5.74           $5.64
83890         FEHB 1               N/A          N/A          N/A         N/A             N/A
              FEHB 2               N/A          N/A       $36.00         N/A          $28.00
              FEHB 3            $23.00        $5.00        $3.02       $7.00          $10.06

              Medicare           $5.64        $5.64        $5.64       $5.64           $5.64
              Medicaid           $5.17        $5.64        $5.10       $5.74           $5.64
83891         FEHB 1             $5.94          N/A        $5.94         N/A           $5.04
              FEHB 2            $15.96       $11.76        $5.88         N/A          $10.92
              FEHB 3             $4.95        $2.54        $4.95      $12.61           $9.76

              Medicare           $5.64        $5.64        $5.64       $5.64           $5.64
              Medicaid           $5.17        $5.64        $5.10       $5.74           $5.64
83892         FEHB 1             $5.94          N/A        $5.46         N/A           $8.04
              FEHB 2               N/A          N/A       $23.50         N/A          $22.50
              FEHB 3             $9.90       $18.64        $9.90       $9.13           $9.76

              Medicare           $5.64        $5.64        $5.64       $5.64           $5.64
              Medicaid           $5.17        $5.64        $5.10       $5.74           $5.64
83894         FEHB 1               N/A          N/A        $5.94         N/A             N/A
              FEHB 2            $15.96          N/A       $24.00         N/A          $39.00
              FEHB 3            $15.00          N/A       $10.00         N/A           $9.76

              Medicare           $5.64        $5.64        $5.64       $5.64           $5.64
              Medicaid           $5.17        $5.64        $5.10       $5.74           $5.64
83896         FEHB 1               N/A          N/A          N/A         N/A           $6.54
              FEHB 2               N/A          N/A       $22.00         N/A          $39.00
              FEHB 3             $9.90      $183.17        $9.90      $38.96          $10.28

              Medicare           $5.64        $5.64        $5.64       $5.64           $5.64
              Medicaid           $5.17        $5.64        $5.10       $5.74           $5.64
83897         FEHB 1               N/A          N/A          N/A         N/A             N/A
              FEHB 2               N/A          N/A          N/A         N/A          $10.92
              FEHB 3               N/A          N/A          N/A         N/A             N/A

              Medicare          $23.58       $23.58        $5.80      $23.58          $23.58
              Medicaid          $21.61       $23.58        $5.23      $24.01          $23.58
83898         FEHB 1               N/A          N/A          N/A         N/A          $22.65
              FEHB 2            $20.00       $83.00       $35.01         N/A             N/A
              FEHB 3            $35.00       $20.51       $10.00      $52.25          $71.50

              Medicare          $47.18       $47.18       $11.58      $47.18          $47.18
              Medicaid          $43.22       $47.17          N/A      $48.02          $47.18
83900         FEHB 1            $49.69          N/A       $49.69         N/A             N/A
              FEHB 2               N/A          N/A       $12.02         N/A          $55.00
              FEHB 3            $26.24       $20.86        $5.18      $98.45          $60.82
                                                                        continued on next page




OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
Page 25 – Marilyn Tavenner

Table D-1: Medicare Clinical Laboratory Fee Schedule, State Medicaid Program, and
Federal Employee Health Benefit Payment Rates for Selected Genetic Test Codes
(Continued)
Current                                                 State
Procedural
              Insurer
Terminology                        MS           MT            NC          ND             NE
Code
              Medicare           $23.58      $23.58        $5.80      $23.58          $23.58
              Medicaid           $21.61      $23.58        $5.23      $24.01          $23.58
83901         FEHB 1             $24.85         N/A       $24.85         N/A             N/A
              FEHB 2                N/A         N/A          N/A         N/A             N/A
              FEHB 3             $82.50      $82.76       $52.36         N/A         $167.40

              Medicare            $5.80      $19.97        $5.80      $19.97          $19.97
              Medicaid            $5.31      $19.96        $5.23      $20.33          $19.97
83902         FEHB 1                N/A         N/A          N/A         N/A          $28.46
              FEHB 2                N/A         N/A          N/A         N/A             N/A
              FEHB 3                N/A      $30.50       $10.00      $43.00           $7.67

              Medicare           $23.58      $23.58        $5.80      $23.58          $23.58
              Medicaid           $21.61      $23.58        $5.23      $24.01          $23.58
83904         FEHB 1                N/A         N/A          N/A         N/A             N/A
              FEHB 2                N/A         N/A       $13.02         N/A             N/A
              FEHB 3             $16.52         N/A      $193.05      $78.00         $100.00

              Medicare            $9.83      $18.80       $18.80      $18.80          $18.80
              Medicaid            $9.01      $18.79       $16.98         N/A          $18.80
83907         FEHB 1                N/A         N/A          N/A         N/A          $58.80
              FEHB 2                N/A         N/A          N/A         N/A             N/A
              FEHB 3             $16.21         N/A       $10.00      $20.85          $28.70

              Medicare           $23.58      $23.58        $5.80      $23.58          $23.58
              Medicaid           $21.61      $23.58        $5.23      $24.01          $23.58
83909         FEHB 1             $24.85         N/A       $31.07         N/A           $3.73
              FEHB 2                N/A         N/A       $13.26         N/A             N/A
              FEHB 3             $23.25         N/A        $2.59      $86.00          $25.41

              Medicare            $5.64       $5.64        $5.64       $5.64           $5.64
              Medicaid            $5.17       $5.64        $5.10       $5.74           $5.64
83912         FEHB 1              $5.94         N/A        $5.94         N/A           $5.25
              FEHB 2             $15.96      $37.00       $26.30         N/A          $37.00
              FEHB 3              $4.95       $2.54        $4.95      $12.50           $9.76

              Medicare           $23.58      $23.58        $5.80      $23.58          $23.58
              Medicaid           $21.61      $23.58        $5.23      $24.01          $23.58
83914         FEHB 1             $24.80         N/A          N/A         N/A          $59.79
              FEHB 2                N/A         N/A       $12.59         N/A          $23.00
              FEHB 3            $167.70     $268.63       $82.88      $81.50         $210.00

              Medicare           $30.14      $20.37       $20.37      $30.14          $30.14
              Medicaid           $27.61      $20.37       $18.40      $30.68          $30.14
88271         FEHB 1                N/A         N/A          N/A         N/A             N/A
              FEHB 2             $30.00         N/A          N/A         N/A             N/A
              FEHB 3                N/A     $182.00      $136.29      $81.44         $520.00
                                                                        continued on next page




OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
Page 26 – Marilyn Tavenner

Table D-1: Medicare Clinical Laboratory Fee Schedule, State Medicaid Program, and
Federal Employee Health Benefit Payment Rates for Selected Genetic Test Codes
(Continued)
Current                                                 State
Procedural
              Insurer
Terminology                        NH           NJ            NM          NV             NY
Code
              Medicare           $5.64        $5.64        $5.64       $5.64            $5.64
              Medicaid           $3.44        $4.51        $5.64       $2.80            $5.54
83890         FEHB 1               N/A          N/A          N/A         N/A              N/A
              FEHB 2               N/A          N/A          N/A         N/A              N/A
              FEHB 3             $5.81        $5.00       $38.01       $4.93            $6.26

              Medicare           $5.64        $5.64        $5.64       $5.64           $5.64
              Medicaid           $3.32        $4.51        $5.64       $2.80           $5.54
83891         FEHB 1               N/A        $5.78        $5.78       $6.72          $10.97
              FEHB 2               N/A        $5.88       $11.91       $5.88           $5.88
              FEHB 3             $6.26        $4.95        $3.94       $5.00           $4.82

              Medicare           $5.64        $5.64        $5.64       $5.64           $5.64
              Medicaid           $3.44        $4.51        $5.64       $2.80           $5.54
83892         FEHB 1               N/A        $5.25          N/A       $5.40          $16.00
              FEHB 2               N/A       $24.00        $5.04       $5.88          $10.94
              FEHB 3            $16.20        $9.90        $7.46       $7.46           $7.84

              Medicare           $5.64        $5.64        $5.64       $5.64           $5.64
              Medicaid           $3.44        $4.51        $5.64       $2.80           $5.54
83894         FEHB 1               N/A        $4.44          N/A         N/A          $16.00
              FEHB 2               N/A        $6.19       $11.91      $24.00          $20.00
              FEHB 3             $6.26        $9.64        $3.94      $10.00           $6.26

              Medicare           $5.64        $5.64        $5.64       $5.64           $5.64
              Medicaid           $3.44        $4.51        $5.64       $2.80           $5.54
83896         FEHB 1               N/A        $5.25          N/A       $5.40          $16.00
              FEHB 2               N/A        $3.94        $8.90       $5.88           $5.88
              FEHB 3           $314.50        $9.90        $7.88       $8.68          $14.04

              Medicare           $5.64        $5.64        $5.64       $5.64           $5.64
              Medicaid           $3.32        $4.51        $5.64       $2.80           $5.54
83897         FEHB 1               N/A          N/A          N/A         N/A          $22.00
              FEHB 2               N/A        $3.00          N/A         N/A          $22.00
              FEHB 3               N/A       $21.13          N/A      $15.00           $8.86

              Medicare           $6.14       $23.58       $23.58      $23.58          $23.58
              Medicaid           $3.75       $18.86       $23.58      $11.72          $15.89
83898         FEHB 1               N/A       $22.65       $22.65      $22.32             N/A
              FEHB 2               N/A       $35.51       $49.82      $35.01          $35.01
              FEHB 3           $223.74       $35.00       $32.94      $26.53          $41.86

              Medicare          $12.29       $47.18       $47.18      $47.18          $47.18
              Medicaid           $9.76       $37.74       $47.18      $23.42          $31.78
83900         FEHB 1               N/A       $37.47       $46.03      $67.23          $57.29
              FEHB 2               N/A       $40.36       $40.36      $40.36          $28.46
              FEHB 3            $46.50       $32.08       $32.94      $23.42          $33.61
                                                                        continued on next page




OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
 Page 27 – Marilyn Tavenner

 Table D-1: Medicare Clinical Laboratory Fee Schedule, State Medicaid Program, and
 Federal Employee Health Benefit Payment Rates for Selected Genetic Test Codes
 (Continued)
 Current                                                State
 Procedural
               Insurer
 Terminology                     NH          NJ         NM          NV                                                                 NY*
 Code
                        Medicare                 $6.14            $23.58             $23.58            $23.58                       $23.58
                        Medicaid                 $3.62            $18.86             $10.70            $11.72                       $15.89
 83901                  FEHB 1                     N/A             $9.93                N/A            $33.61                       $25.42
                        FEHB 2                     N/A            $22.88             $26.22            $12.27                       $12.05
                        FEHB 3                 $116.25           $121.75            $297.08            $99.12                      $129.42

                        Medicare                  $5.80            $19.97            $10.70            $19.97                        $19.97
                        Medicaid                  $4.55            $15.98            $23.58             $9.92                        $13.45
 83902                  FEHB 1                      N/A               N/A               N/A            $17.15                           N/A
                        FEHB 2                      N/A               N/A               N/A               N/A                           N/A
                        FEHB 3                      N/A            $16.93             $7.57             $8.79                        $13.98

                        Medicare                 $6.14             $23.58            $23.58            $23.58                        $23.58
                        Medicaid                 $3.62             $18.86            $23.58            $11.72                        $23.42
 83904                  FEHB 1                     N/A                N/A               N/A               N/A                           N/A
                        FEHB 2                     N/A                N/A               N/A               N/A                        $35.01
                        FEHB 3                 $268.64             $46.50         $1,367.08            $89.79                        $58.72

                        Medicare                 $18.80            $18.80            $18.80            $18.80       $18.80/$4.95/$18.80*
                        Medicaid                 $11.48            $15.04            $18.80             $9.33                      $5.54
 83907                  FEHB 1                      N/A               N/A               N/A               N/A                        N/A
                        FEHB 2                      N/A               N/A            $47.60               N/A                        N/A
                        FEHB 3                   $17.88            $16.79            $13.12            $24.87                     $20.85

                        Medicare                  $6.14            $23.58            $23.58            $23.58                        $23.58
                        Medicaid                  $3.75            $18.86            $23.58            $11.71                        $23.42
 83909                  FEHB 1                      N/A            $54.12            $18.75            $33.61                        $30.27
                        FEHB 2                      N/A            $13.38            $13.49            $13.49                        $13.49
                        FEHB 3                   $23.25            $19.81            $15.61            $16.24                        $23.25

                        Medicare                  $5.64             $5.64             $5.64             $5.64                         $5.64
                        Medicaid                  $4.43             $4.51             $5.64             $2.80                        $20.00
 83912                  FEHB 1                      N/A             $5.25             $5.25            $17.15                         $9.47
                        FEHB 2                      N/A            $15.84            $13.18             $5.88                         $5.88
                        FEHB 3                   $36.47             $5.00            $11.46             $5.00                         $5.57

                        Medicare                 $6.14            $23.58             $23.58           $23.58                        $23.58
                        Medicaid                 $3.75            $18.86             $23.58           $11.71                        $23.42
 83914                  FEHB 1                     N/A            $23.94             $33.02              N/A                        $18.20
                        FEHB 2                     N/A            $13.27             $19.17           $13.68                        $13.27
                        FEHB 3                 $232.50           $383.12            $271.04          $157.95                       $232.50

                        Medicare                 $30.14           $25.47             $30.14           $30.14      $25.47/$20.37/$20.37*
                        Medicaid                 $18.41           $20.38             $30.14           $14.97                     $29.60
 88271                  FEHB 1                      N/A              N/A                N/A           $30.00                        N/A
                        FEHB 2                      N/A              N/A                N/A              N/A                        N/A
                        FEHB 3                      N/A          $109.20            $289.02          $155.94                   $150.00
                                                                                                                       continued on next page
* Four States (CA, KS, MO, and NY) are divided into multiple Medicare carrier jurisdictions. Each jurisdiction may have a different price for
some Current Procedural Terminology codes. In jurisdictions where prices differ, differences are signified using “/” between each
jurisdiction’s price.




 OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
Page 28 – Marilyn Tavenner

Table D-1: Medicare Clinical Laboratory Fee Schedule, State Medicaid Program, and
Federal Employee Health Benefit Payment Rates for Selected Genetic Test Codes
(Continued)
Current                                                 State
Procedural
              Insurer
Terminology                        OH           OK            OR          PA               RI
Code
              Medicare           $5.64        $5.64        $5.64       $5.64           $5.64
              Medicaid           $5.37        $5.18        $4.25       $5.54           $3.36
83890         FEHB 1               N/A          N/A          N/A         N/A             N/A
              FEHB 2            $28.38          N/A        $9.51       $5.88             N/A
              FEHB 3             $5.60        $6.60        $4.86       $4.09          $10.09

              Medicare           $5.64        $5.64        $5.64       $5.64            $5.64
              Medicaid           $5.37        $5.18        $4.25       $4.43            $3.36
83891         FEHB 1             $5.78        $4.76        $5.90       $4.47              N/A
              FEHB 2             $5.88        $2.69        $5.85       $5.88              N/A
              FEHB 3             $2.60        $7.50        $5.71       $4.02            $4.45

              Medicare           $5.64        $5.64        $5.64       $5.64           $5.64
              Medicaid           $5.37        $5.18        $4.25       $5.00           $3.36
83892         FEHB 1               N/A          N/A        $5.35         N/A             N/A
              FEHB 2             $6.19        $2.46          N/A       $5.88             N/A
              FEHB 3             $8.46       $12.00        $9.90       $9.90          $16.20

              Medicare           $5.64        $5.64        $5.64       $5.64           $5.64
              Medicaid           $5.37        $5.18        $4.25       $5.00           $3.36
83894         FEHB 1               N/A          N/A          N/A         N/A             N/A
              FEHB 2            $14.94       $10.64       $17.00      $28.00             N/A
              FEHB 3             $5.60        $7.84       $16.92      $12.06          $16.20

              Medicare           $5.64        $5.64        $5.64       $5.64           $5.64
              Medicaid           $5.37        $5.18        $4.25       $5.54           $3.36
83896         FEHB 1             $5.25          N/A          N/A       $5.46             N/A
              FEHB 2             $5.88        $2.35        $9.01       $5.88             N/A
              FEHB 3            $28.00       $13.55        $9.90       $9.90          $15.65

              Medicare           $5.64        $5.64        $5.64       $5.64            $5.64
              Medicaid           $5.37        $5.18        $4.25       $4.43            $3.36
83897         FEHB 1               N/A          N/A          N/A         N/A              N/A
              FEHB 2               N/A          N/A          N/A         N/A              N/A
              FEHB 3            $66.27          N/A          N/A       $6.26              N/A

              Medicare          $23.58       $23.58       $23.58      $23.58          $23.58
              Medicaid          $22.47       $21.67       $17.77      $22.50          $14.05
83898         FEHB 1            $22.65       $22.66       $22.31      $23.53             N/A
              FEHB 2            $35.01        $9.84       $29.85      $35.01             N/A
              FEHB 3            $49.04       $64.86       $28.81      $41.86         $345.60

              Medicare          $47.18       $47.18       $47.18      $47.18          $47.18
              Medicaid          $45.43       $43.36       $35.53      $37.47          $28.10
83900         FEHB 1            $12.07       $31.07       $38.25      $12.29             N/A
              FEHB 2            $40.36       $24.57       $61.82      $40.36             N/A
              FEHB 3            $16.82       $30.45       $48.02      $23.92          $13.63
                                                                        continued on next page




OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
Page 29 – Marilyn Tavenner

Table D-1: Medicare Clinical Laboratory Fee Schedule, State Medicaid Program, and
Federal Employee Health Benefit Payment Rates for Selected Genetic Test Codes
(Continued)
Current                                                State
Procedural
              Insurer
Terminology                         OH          OK           OR           PA              RI
Code
              Medicare           $23.58      $23.58        $23.58      $23.58         $23.58
              Medicaid           $22.47      $21.67        $17.77      $18.54         $14.05
83901         FEHB 1             $11.83      $15.65           N/A      $12.28            N/A
              FEHB 2             $28.07      $11.27        $22.32      $30.10            N/A
              FEHB 3            $170.51     $119.00        $24.01     $155.65            N/A

              Medicare           $19.97      $10.70        $12.09      $19.97          $7.62
              Medicaid           $19.02       $9.83         $9.11         N/A          $4.54
83902         FEHB 1                N/A         N/A           N/A         N/A            N/A
              FEHB 2                N/A       $8.33           N/A      $36.60            N/A
              FEHB 3              $4.44      $17.52         $9.90      $19.00          $6.42

              Medicare           $23.58      $23.58        $23.58      $23.58         $23.58
              Medicaid           $22.47      $21.67        $17.77      $18.54         $14.05
83904         FEHB 1                N/A         N/A           N/A      $23.54            N/A
              FEHB 2                N/A         N/A        $18.50      $35.01            N/A
              FEHB 3            $293.40      $38.64           N/A      $89.79            N/A

              Medicare           $16.24      $18.35        $18.80      $18.80         $18.80
              Medicaid           $15.64      $16.87        $14.16      $14.93         $11.20
83907         FEHB 1                N/A         N/A        $58.80         N/A            N/A
              FEHB 2                N/A         N/A           N/A         N/A            N/A
              FEHB 3              $9.18      $15.44        $16.21      $17.88         $33.63

              Medicare           $23.58      $23.58        $23.58      $23.58         $23.58
              Medicaid           $22.72      $21.67        $17.77      $18.74         $14.05
83909         FEHB 1              $6.03      $30.26        $29.51       $6.13            N/A
              FEHB 2             $12.26      $12.26        $16.70       $9.51            N/A
              FEHB 3             $11.65      $23.25        $40.68      $11.96        $345.60

              Medicare            $5.64       $5.64         $5.64       $5.64          $5.64
              Medicaid            $5.37       $5.18         $4.25       $5.54          $3.36
83912         FEHB 1              $5.25      $10.73         $5.46       $4.19            N/A
              FEHB 2              $5.88       $2.92        $33.32       $5.88            N/A
              FEHB 3              $6.10       $7.84        $34.17      $20.78          $5.50

              Medicare           $23.58      $23.58        $23.58      $23.58         $23.58
              Medicaid           $22.72      $21.67        $17.77         N/A         $14.05
83914         FEHB 1              $6.03      $27.09        $26.71       $6.14            N/A
              FEHB 2             $12.69      $12.28        $24.14      $12.26            N/A
              FEHB 3            $210.25     $232.50       $117.38     $383.12          $5.88

              Medicare           $30.14      $30.14        $30.14      $16.97         $30.14
              Medicaid           $28.71      $27.70        $22.70         N/A         $17.96
88271         FEHB 1             $28.46         N/A           N/A         N/A            N/A
              FEHB 2                N/A         N/A           N/A         N/A            N/A
              FEHB 3             $18.62     $191.72        $26.52     $150.36            N/A
                                                                        continued on next page




OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
Page 30 – Marilyn Tavenner

Table D-1: Medicare Clinical Laboratory Fee Schedule, State Medicaid Program, and
Federal Employee Health Benefit Payment Rates for Selected Genetic Test Codes
(Continued)
Current                                                 State
Procedural
              Insurer
Terminology                        SC           SD            TN          TX              UT
Code
              Medicare           $5.64        $5.64        $5.64       $5.64           $4.48
              Medicaid           $5.03        $5.54          N/A       $5.51           $3.85
83890         FEHB 1             $3.36       $51.82          N/A       $9.82           $5.94
              FEHB 2               N/A          N/A          N/A      $36.00          $19.23
              FEHB 3             $5.00        $8.25        $4.93       $5.00           $5.00

              Medicare           $5.64        $5.64        $5.64       $5.64            $4.48
              Medicaid           $5.03        $5.54          N/A       $5.51            $4.33
83891         FEHB 1             $5.94       $34.52        $5.86       $5.86            $5.94
              FEHB 2             $4.64          N/A       $24.00       $5.88            $5.88
              FEHB 3             $4.95        $4.95        $4.95       $4.86            $5.00

              Medicare           $5.64        $5.64        $5.64       $5.64            $4.48
              Medicaid           $5.03        $5.54          N/A       $5.51            $3.85
83892         FEHB 1             $5.18       $33.02        $5.60       $5.94            $5.19
              FEHB 2               N/A          N/A        $5.88      $12.75            $5.88
              FEHB 3             $9.90        $9.90        $9.90       $9.90            $7.63

              Medicare           $5.64        $5.64        $5.64       $5.64           $4.48
              Medicaid           $5.03        $5.54          N/A       $5.51           $3.85
83894         FEHB 1               N/A       $58.20        $5.94       $5.19           $5.94
              FEHB 2               N/A          N/A          N/A      $24.00          $24.00
              FEHB 3             $9.00       $15.00        $5.00       $6.88           $5.00

              Medicare           $5.64        $5.64        $5.64       $5.64           $4.48
              Medicaid           $5.03        $5.54          N/A       $5.51           $4.22
83896         FEHB 1             $5.46       $20.26        $5.25      $11.77          $11.75
              FEHB 2             $5.04          N/A          N/A       $6.02          $17.46
              FEHB 3             $9.90        $8.25       $13.49      $19.80           $9.12

              Medicare           $5.64        $5.64        $5.64       $5.64            $4.48
              Medicaid           $5.03        $5.54          N/A       $5.51            $4.33
83897         FEHB 1               N/A          N/A          N/A         N/A              N/A
              FEHB 2               N/A          N/A          N/A         N/A              N/A
              FEHB 3               N/A          N/A        $7.03       $7.33              N/A

              Medicare          $23.58       $23.58        $5.80      $14.32          $20.95
              Medicaid          $21.04       $23.17          N/A      $14.00          $18.56
83898         FEHB 1            $25.96       $58.20       $24.85      $24.85          $24.85
              FEHB 2            $17.05          N/A      $317.89      $35.01          $35.51
              FEHB 3            $47.10       $34.53        $7.08      $20.69          $23.17

              Medicare          $47.18       $47.18       $11.58      $28.65          $41.87
              Medicaid          $42.10       $46.84          N/A      $27.99            N/A
83900         FEHB 1            $38.91          N/A       $70.35      $49.69         $108.00
              FEHB 2           $147.00          N/A       $38.92      $29.89          $40.36
              FEHB 3            $20.83       $28.68        $8.25      $16.94          $41.49
                                                                        continued on next page




OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
Page 31 – Marilyn Tavenner

Table D-1: Medicare Clinical Laboratory Fee Schedule, State Medicaid Program, and
Federal Employee Health Benefit Payment Rates for Selected Genetic Test Codes
(Continued)
Current                                                 State
Procedural
              Insurer
Terminology                         SC          SD            TN          TX              UT
Code
              Medicare           $23.58      $23.58        $5.80       $14.32          $20.95
              Medicaid           $21.04      $23.17          N/A       $14.00          $20.29
83901         FEHB 1             $24.80         N/A          N/A       $18.54          $22.32
              FEHB 2             $21.08         N/A       $34.01       $12.26             N/A
              FEHB 3            $100.49      $18.25       $59.59      $110.11         $125.58

              Medicare           $19.97      $19.97        $5.80       $14.32          $19.97
              Medicaid           $17.82      $19.61          N/A       $14.00          $46.89
83902         FEHB 1                N/A         N/A        $5.26       $29.65          $23.54
              FEHB 2                N/A         N/A          N/A          N/A             N/A
              FEHB 3             $31.00       $9.90        $4.57       $16.94          $25.00

              Medicare           $23.58      $23.58        $5.80       $14.32          $20.95
              Medicaid           $21.04      $23.17          N/A       $14.00          $20.29
83904         FEHB 1             $14.05         N/A          N/A       $22.66          $20.60
              FEHB 2             $13.02         N/A          N/A       $35.01             N/A
              FEHB 3             $54.42         N/A       $15.34       $64.14         $134.69

              Medicare           $18.80      $18.80       $18.80       $18.80          $18.80
              Medicaid           $16.77      $18.66          N/A       $18.36             N/A
83907         FEHB 1                N/A         N/A          N/A          N/A             N/A
              FEHB 2                N/A         N/A          N/A          N/A             N/A
              FEHB 3             $17.55         N/A       $18.53       $16.21          $17.88

              Medicare           $23.58      $23.58        $5.80       $14.32          $20.95
              Medicaid           $21.04      $23.42          N/A       $14.00             N/A
83909         FEHB 1             $22.95     $168.89       $35.18       $24.85          $18.75
              FEHB 2             $13.02         N/A       $18.74       $12.26          $13.49
              FEHB 3             $13.32      $21.50        $5.90        $8.47          $20.45

              Medicare            $5.64       $5.64        $5.64        $5.64           $4.48
              Medicaid            $5.03       $5.54          N/A        $5.51           $4.33
83912         FEHB 1              $5.36      $56.58        $5.36        $5.36           $5.94
              FEHB 2             $11.09         N/A       $17.64        $5.88           $5.88
              FEHB 3              $4.95       $7.00        $5.00        $4.95           $5.00

              Medicare           $23.58      $23.58        $5.80       $14.32          $20.95
              Medicaid           $21.04      $23.42          N/A       $14.00             N/A
83914         FEHB 1             $24.85         N/A          N/A       $24.85          $34.17
              FEHB 2             $73.80         N/A       $18.74       $12.28          $19.17
              FEHB 3            $234.20     $219.00      $132.16      $271.04          $82.88

              Medicare           $30.14      $30.14       $20.37       $30.14          $20.37
              Medicaid           $26.89       $3.50          N/A       $29.45          $19.73
88271         FEHB 1                N/A         N/A          N/A          N/A          $30.00
              FEHB 2                N/A         N/A          N/A          N/A             N/A
              FEHB 3            $179.60      $37.00       $63.23      $107.67         $127.32
                                                                         continued on next page




OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
Page 32 – Marilyn Tavenner

Table D-1: Medicare Clinical Laboratory Fee Schedule, State Medicaid Program, and
Federal Employee Health Benefit Payment Rates for Selected Genetic Test Codes
(Continued)
Current                                               State
Procedural
              Insurer
Terminology                    VA        VT       WA          WI        WV               WY
Code
              Medicare       $5.51     $5.64     $5.64      $5.64      $5.64            $5.64
              Medicaid       $5.14     $5.40     $5.74      $5.60      $5.08            $5.04
83890         FEHB 1           N/A       N/A     $5.25        N/A        N/A              N/A
              FEHB 2         $1.98       N/A     $4.40     $45.00        N/A              N/A
              FEHB 3         $4.95     $5.45     $5.00      $8.36      $7.20              N/A

              Medicare       $5.51     $5.64     $5.64      $5.64      $5.64            $5.64
              Medicaid       $5.14     $5.40     $5.74      $5.60      $5.08              N/A
83891         FEHB 1         $5.79       N/A     $5.78        N/A      $5.78              N/A
              FEHB 2         $5.88       N/A     $5.88     $26.95     $24.00              N/A
              FEHB 3         $5.00    $16.08     $5.17      $6.31      $7.20            $5.91

              Medicare       $5.51     $5.64     $5.64      $5.64      $5.64            $5.64
              Medicaid       $5.14     $5.40     $5.74      $5.60      $5.08            $5.04
83892         FEHB 1         $5.25       N/A     $5.25        N/A        N/A              N/A
              FEHB 2         $5.88       N/A    $13.02     $14.64        N/A              N/A
              FEHB 3         $9.90    $16.62    $14.85      $5.74     $14.40            $9.72

              Medicare       $5.51     $5.64     $5.64      $5.64      $5.64           $5.64
              Medicaid       $5.14     $5.40     $5.74      $5.60      $5.08           $5.04
83894         FEHB 1         $5.70       N/A       N/A        N/A      $5.26             N/A
              FEHB 2         $5.45       N/A    $24.00     $52.37        N/A             N/A
              FEHB 3         $5.09    $16.62    $16.92      $5.74     $14.40          $13.90

              Medicare      $5.51      $5.64     $5.64      $5.64      $5.64           $5.64
              Medicaid      $5.14      $5.40     $5.74      $5.60      $5.08           $5.04
83896         FEHB 1        $5.25        N/A     $5.25        N/A        N/A             N/A
              FEHB 2        $5.88        N/A     $8.27     $25.20        N/A             N/A
              FEHB 3       $19.80    $337.94    $10.03     $11.01     $43.20          $11.14

              Medicare      $5.51      $5.64     $5.64      $5.64      $5.64            $5.64
              Medicaid      $5.14      $5.40     $5.74      $5.60      $5.08            $5.04
83897         FEHB 1          N/A        N/A       N/A        N/A        N/A              N/A
              FEHB 2       $10.14        N/A       N/A        N/A        N/A              N/A
              FEHB 3        $4.95        N/A       N/A        N/A        N/A              N/A

              Medicare     $23.58      $6.14    $23.58     $23.58     $23.58          $23.58
              Medicaid     $18.53      $5.93    $24.01      $3.73     $21.22          $21.08
83898         FEHB 1       $23.53        N/A       N/A        N/A        N/A             N/A
              FEHB 2       $19.91        N/A    $35.01    $102.06     $35.01             N/A
              FEHB 3       $18.14     $44.90    $39.53     $24.01     $29.25         $345.60

              Medicare     $47.18     $12.29    $47.18     $47.18     $47.18          $47.18
              Medicaid     $44.50     $34.86    $36.50     $42.58     $42.46          $42.16
83900         FEHB 1       $28.25        N/A   $101.83        N/A     $46.55             N/A
              FEHB 2       $40.36        N/A    $46.84    $202.75     $37.47             N/A
              FEHB 3        $5.18     $46.50    $44.82     $46.50     $58.50          $47.34
                                                                        continued on next page




OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
 Page 33 – Marilyn Tavenner

 Table D-1: Medicare Clinical Laboratory Fee Schedule, State Medicaid Program, and
 Federal Employee Health Benefit Payment Rates for Selected Genetic Test Codes
 (Continued)
 Current                                               State
 Procedural
               Insurer
 Terminology                    VA        VT       WA          WI         WV                                                    WY
 Code

                       Medicare            $23.58           $6.14          $23.58         $23.58           $23.58            $23.58
                       Medicaid            $13.37           $5.93          $24.01         $23.40           $21.22            $21.08
 83901
                       FEHB 1              $15.06             N/A             N/A            N/A           $24.76               N/A
                       FEHB 2              $21.40             N/A           $4.00         $51.82           $34.01               N/A
                       FEHB 3              $70.00             N/A          $93.91         $26.41          $351.00           $162.72

                       Medicare             $5.51           $5.80          $12.09         $14.53           $19.97             $19.97
                       Medicaid             $5.14           $5.57          $12.31         $14.41           $17.97             $17.85
 83902                 FEHB 1              $13.63             N/A           $5.26            N/A            $5.26                N/A
                       FEHB 2                 N/A             N/A             N/A            N/A              N/A                N/A
                       FEHB 3               $8.58          $19.00           $9.90         $31.00            $9.90             $31.00

                       Medicare            $23.58           $6.14         $23.58          $23.58           $23.58             $23.58
                       Medicaid            $13.37           $5.93         $24.01          $23.40           $21.22             $21.08
 83904                 FEHB 1              $22.66             N/A            N/A             N/A           $22.66                N/A
                       FEHB 2              $29.00             N/A         $24.02             N/A              N/A                N/A
                       FEHB 3              $54.42          $67.35        $134.69          $34.41           $81.36                N/A

                       Medicare            $16.36          $18.80          $18.80         $10.51           $18.80             $12.27
                       Medicaid            $15.43          $34.86          $14.54          $9.49           $16.92             $10.96
 83907                 FEHB 1                 N/A             N/A             N/A            N/A              N/A                N/A
                       FEHB 2                 N/A             N/A             N/A            N/A              N/A                N/A
                       FEHB 3              $16.21          $17.88          $17.88            N/A              N/A             $24.32

                       Medicare            $23.58           $6.14          $23.58         $23.58           $23.58            $23.58
                       Medicaid            $22.25           $5.93          $18.25         $21.29           $21.22            $21.08
 83909                 FEHB 1              $18.74             N/A             N/A            N/A           $23.25               N/A
                       FEHB 2              $13.49             N/A          $16.75         $17.12           $18.74               N/A
                       FEHB 3               $2.59          $34.08          $33.17         $34.95           $29.25           $345.60

                       Medicare             $5.51           $5.64           $5.64          $5.64            $5.64              $5.64
                       Medicaid             $5.20             N/A           $5.74          $5.60            $5.08              $5.04
 83912                 FEHB 1               $5.25             N/A           $5.25            N/A            $5.25                N/A
                       FEHB 2               $5.88             N/A           $5.88         $54.95           $40.00                N/A
                       FEHB 3               $5.00          $42.82           $5.64          $6.31           $29.25              $5.57

                       Medicare            $23.58          $6.14          $23.58          $23.58           $23.58             $23.58
                       Medicaid            $22.25         $34.86          $18.25          $21.29           $21.22             $21.08
 83914                 FEHB 1              $15.13            N/A             N/A             N/A              N/A                N/A
                       FEHB 2              $19.17            N/A           $6.00             N/A           $18.74                N/A
                       FEHB 3              $82.88        $479.26         $229.04         $102.35          $294.03             $99.37

                       Medicare            $30.14          $30.14         $30.14          $20.37           $30.14            $30.14
                       Medicaid            $28.12          $38.34         $23.32          $20.22           $27.13            $26.94
 88271                 FEHB 1              $28.45             N/A            N/A             N/A           $28.45               N/A
                       FEHB 2                 N/A             N/A            N/A             N/A              N/A               N/A
                       FEHB 3              $69.03             N/A        $116.95          $25.00          $138.88           $239.44
Source: Office of Inspector General analysis of Medicare Clinical Laboratory Fee Schedule, State Medicaid Program, and FEHB Payment
Rates, 2011.




 OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
Page 34 – Marilyn Tavenner


     APPENDIX E

Table E-1: State Medicaid Program Payment Rates for Selected Genetic Tests by Test
Name
 Test                                        State
                              CA             DE            IL           IA           MA             MN        PA       VA
 BCR/ABL1
 Translocation                                                       $867
 Analysis
 BRCA1 Gene
                          $3,340        $3,120       $3,030        $4,498        $2,731                    $1,000   $3,120
 Analysis
 BRCA2 Gene
                          $3,340        $3,120       $2,770        $4,947                                  $1,000
 Analysis
 CFTR Gene
                            $180
 Analysis
 ChemoFx                                                           $1,408
 F2 Gene
                                                                     $132
 Analysis
 KRAS Gene
                                                                     $421
 Analysis
 MLH1 Gene
 Analysis
 MSH2 Gene
 Analysis
 OncoTypeDX                                          $2,050                                       $3,416
 PathFinderTG             $2,732
 Pathwork Tissue
                                                                     $927
 of Origin
 VeriStrat                                                             $25
Note: Payment rates rounded to the nearest whole dollar. 

Source: Office of Inspector General analysis of State Medicaid program survey responses, 2011.





OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
Page 35 – Marilyn Tavenner


     APPENDIX F

Table F-1: Federal Employee Health Benefits Plan Median Payment Rates for Selected
Genetic Tests by Test Name
                                                  Test
 State                          BCR/ABL1        CFTR                            HFE
                                                                  F2 Gene
                                AlloMap        Translocation        Gene    ChemoFx                    Gene
                                                                                      Analysis
                                                    Analysis     Analysis                           Analysis
 Alabama                              $13                                       $95
 Alaska                                                                        $187
 Arizona                              $20                            $18        $75
 Arkansas                                                                      $150
 California                           $50                            $18       $105
 Colorado                             $11                                       $93
 Connecticut                                                         $38       $114        $38
 Delaware                             $13                                       $92
 District of Columbia                  $6                            $18        $73
 Florida                             $117                             $7        $98
 Georgia                             $177                                       $95
 Hawaii                                                                        $109
 Idaho                                                                         $130
 Illinois                             $80                  $93       $12        $99
 Indiana                             $455                                       $72
 Iowa                                $227                                      $150
 Kansas                              $270                                      $124
 Kentucky                             $18                            $35        $57
 Louisiana                           $171                                      $126
 Maine                                $42                                       $65
 Maryland                              $8                            $12        $73
 Massachusetts                                                                  $98
 Michigan                            $102                                       $60
 Minnesota                            $16                             $1       $125
 Mississippi                                                                   $131
 Missouri                            $130                                      $105
 Montana                                                                        $88
 Nebraska                                                                      $132
 Nevada                                $2                            $12       $116
 New Hampshire                                                                 $125
 New Jersey                           $90                  $13                 $101
 New Mexico                         $207                                        $88
 New York                             $10                                       $86
 North Carolina                       $10                            $30        $95
 North Dakota                       $115                   $93                 $168        $7
 Ohio                                 $35                            $35        $83       $14
 Oklahoma                              $8                            $10       $131
 Oregon                               $40                            $27       $121         $9             $6
 Pennsylvania                         $90                                       $54
 Rhode Island                      $3,658                                      $106
 South Carolina                        $9                                      $123
 South Dakota                       $788                                       $187
 Tennessee                                                                     $131        $26
 Texas                                 $9                             $6       $115
 Utah                                                                           $53         $9
 Vermont                                                                       $182
 Virginia                            $428                            $18        $88         $9
 Washington                                                          $47       $124         $8
 West Virginia                         $8                             $7        $93
 Wisconsin                           $758                             $6       $143                      $51
 Wyoming                                                                       $130
                                                                                        continued on next page
Note: Payment rates rounded to the nearest whole dollar.




OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
Page 36 – Marilyn Tavenner


     APPENDIX F

Table F-1: Federal Employee Health Benefits Plan Median Payment Rates for Selected
Genetic Tests by Test Name (Continued)
                                               Test
      State            MSH2                               Pathwork
                             Oncotech
                                  Gene                         PathFinderTG                Tissue of         VeriStrat
                                                   EDR
                               Analysis                                                       Origin
 Alabama                                           $276                   $240                  $10                $8
 Alaska                                                                                         $38
 Arizona                                         $5,640                $5,640                   $10               $20
 Arkansas                                        $3,760                $3,760                     $8
 California                                         $70                   $70                   $18               $50
 Colorado                                        $3,760                $1,885                   $10               $11
 Connecticut                                                                                    $14
 Delaware                                                                 $13                   $17               $13
 District of Columbia                               $25                   $15                     $5               $6
 Florida                                         $3,760                $3,760                   $19               $48
 Georgia                                          $232                 $5,640                   $10
 Hawaii                                             $44                   $44                   $14
 Idaho                                                                                          $18
 Illinois                                          $360                   $60                   $17               $29
 Indiana                                         $5,170                $4,935                   $15              $455
 Iowa                                $65         $1,880                 $422                    $14              $227
 Kansas                                            $198                 $422                    $18              $422
 Kentucky                                          $138                   $18                   $12               $18
 Louisiana                                           $9                    $9                   $16              $171
 Maine                                              $42                                           $6
 Maryland                                          $470                    $66                  $10                $8
 Massachusetts                                                                                  $16
 Michigan                                                                $102                   $27              $102
 Minnesota                                         $313                  $286                   $15               $16
 Mississippi                                     $5,640                $5,640                   $20
 Missouri                                         $130                  $422                    $18              $422
 Montana                                                                                        $19
 Nebraska                                             $8                    $8                  $10
 Nevada                          $1,207               $8                    $5                  $10                $2
 New Hampshire                                                                                  $27
 New Jersey                                      $3,029                   $418                  $17               $90
 New Mexico                                       $207                                          $11
 New York                                        $3,760                   $62                   $15               $10
 North Carolina                                                           $10                   $10               $10
 North Dakota                                      $113                  $115                   $27              $115
 Ohio                                              $767                   $35                   $17               $35
 Oklahoma                                           $13                    $8                   $17                $8
 Oregon                                                                   $40                   $21               $40
 Pennsylvania                                    $1,880                   $93                   $18               $90
 Rhode Island                                    $2,350                $3,004                   $14            $3,658
 South Carolina                                  $5,640                    $9                   $11                $9
 South Dakota                                      $774                  $760                   $10
 Tennessee                                       $3,055                $3,055                   $10
 Texas                                            $940                  $940                    $10                $9
 Utah                                                                                           $10
 Vermont                                                                                        $28
 Virginia                                         $686                 $2,820                     $8           $1,869
 Washington                                      $5,640                $5,640                   $15
 West Virginia                                                             $8                   $29                $8
 Wisconsin                                         $462                  $758                   $11              $758
 Wyoming                                         $1,443                $1,443                   $15
Source: Office of Inspector General analysis of Federal Employee Health Benefits plan payment rates, 2011.




OEI-07-11-00011 Coverage and Payment for Genetic Laboratory Tests
